      SCIENCENTRAL, INC. AND
CENTER FOR SCIENCE IN THE MEDIA INC
       NEW YORK, NEW YORK

  NATIONAL SCIENCE FOUNDATION
    AWARD NUMBERS ESI-0201155
   ISSUED TO SCIENCENTRAL AND
       ESI-9904457 ISSUED TO
 CENTER FOR SCIENCE IN THE MEDIA

      FINANCIAL SCHEDULES AND
  INDEPENDENT AUDITORS’ REPORTS
               For the period
   September 1, 1999 – September 30, 2003




                             Foxx & Company
                             700 Goodall Complex
                             324 West Ninth Street
                             Cincinnati, Ohio 45202-1908
                    XXXXXXXXXXXXXX


XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XX
             ScienCentral Inc. and Center for Science in the Media Inc.
                               New York, New York

                                              TABLE OF CONTENTS

                                                                                                                      PAGE
Executive Summary

      Background ............................................................................................................1

      Audit Objectives, Scope and Methodology ...........................................................2

      Summary of Audit Results .....................................................................................3

      Exit Conference .....................................................................................................5

Audit Findings and Recommendations

      Independent Auditors’ Report on Financial Schedules ..........................................6

      Independent Auditors’ Report on Compliance with Laws and Regulations
        and Internal Controls Over Financial Reporting..................................................8

Financial Schedules and Supplemental Information

      Schedule A-1 Schedule of Award Costs – (ESI-0201155) ....................................25

      Schedule B-1 Schedule of Questioned Costs – (ESI-0201155) .............................26

      Schedule A-2 Schedule of Award Costs – (ESI-9904457) ....................................29

      Schedule B-2 Schedule of Questioned Costs – (ESI-9904457) .............................30

      Schedule C-1 Summary Schedules of Awards Audited and Audit Results ...........38

      Notes to the Financial Schedules ...........................................................................40

Appendix

      Awardee Comments
EXECUTIVE SUMMARY
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

                                 EXECUTIVE SUMMARY

BACKGROUND

       ScienCentral, Inc. (SCI) is a for-profit production company specializing in science and
technology content for television, video and the web. SCI, as a National Science Foundation
(NSF) awardee, is required to follow the cost principles specified by the Federal Acquisition
Regulations (FAR), Part 31-Contract Cost Principles and Procedures and the Federal
administrative requirements contained in OMB Circular A-110, Uniform Administrative
Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals, and
Other Non-Profit Organizations.

        SCI is closely related to The Center for Science in the Media, Inc. (CSMI), a non-profit
organization that conducts research and develops mass media approaches that bring science and
technology news and information into the mainstream of everyday life. SCI and CSMI share the
same office space and the cost of certain officers, employees, and other costs. As an NSF non-
profit awardee, CSMI is governed by the cost principles specified by OMB Circular A-122, Cost
Principles for Nonprofit Organizations, the Federal administrative requirements contained in
OMB Circular A-110, and the audit requirements contained in OMB Circular A-133, Audits for
States, Local Governments and Non-profit Organizations.

       SCI/CSMI is very dependent on NSF funding. In FY 2002, SCI/CSMI generated
approximately $1.2 million of annual revenues mainly from the NSF grants and program income.
Of the approximate $1.2 million of annual revenues, Federal financial assistance and program
income approximates $0.9 million or 75 percent. NSF, which provides 100 percent of the
Federal financial assistance to SCI/CSMI on an annual basis, is the cognizant Federal audit
agency for both entities.

       For the NSF awards included in this audit, SCI and CSMI produce and distribute weekly
science and technology news videos for ABC-affiliated local commercial newscasts across the
United States. Descriptions of the two grant awards audited are as follows:

      NSF Award ESI-0201155 – The objective of this grant, titled “NOVA Minutes”, was to
produce and distribute two-minute television science stories based on the NOVA PBS science



                                               1
series. Each segment is produced using footage from the NOVA series as well as original and
archival footage. ABC News distributes the NOVA Minutes to its local affiliates for use in
newscasts. Under this agreement, NSF awarded SCI $1,555,351 and SCI agreed to cost share
$1,152,000 for the grant period, March 1, 2002 to July 31, 2004. As of September 30, 2003, SCI
claimed $740,289 in NSF-funded costs and $511,756 in cost sharing.

       NSF Award ESI-9904457 – The objective of this grant, titled “Science News for Local
TV and Spanish Stations” was to develop the Science and Technology News Network (STN2).
STN2 produces 90-second video news stories for local television stations. Under this agreement,
NSF awarded CSMI, with SCI as subawardee, $2,006,169 and CSMI agreed to cost share
$1,930,000 for the grant period, September 1, 1999 to August 31, 2004. As of September 30,
2003, CSMI claimed $1,979,250 in NSF-funded costs and $2,089,235 in cost sharing.

AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

      At the request of the NSF Office of Inspector General (OIG), Foxx & Company
conducted an audit of two NSF awards granted to SCI and CSMI: ESI-0201155 and ESI-
9904457, respectively.

   The objectives of our audit engagement were to:

   1.     Determine whether the Schedules of Award Costs of SCI and CSMI present fairly, in
          all material respects, the costs claimed on the Federal Cash Transaction Reports
          (FCTR) – Federal Share of Net Disbursements and the costs claimed are in
          conformity with the terms and conditions of the NSF awards ESI-0201155 and ESI-
          9904457.

   2.     Identify matters concerning instances of noncompliance with laws, regulations, and
          the provisions of the award agreements pertaining to NSF awards and weaknesses in
          the SCI’s and CSMI’s internal control over financial reporting that could have a
          direct and material effect on the Schedule of Award Costs.

   To accomplish the objectives of the audit, we:

          a. Prepared a survey and internal control audit plan that included the proposed audit
             program and sampling methodology for performing the audit survey, gaining an
             understanding of the grantee’s policies and procedures and financial systems for
             administering NSF awards, identifying risks in the grantee’s operations for
             effectively administering NSF awards, and testing the grantees’ significant
             internal controls to determine whether those controls are operating effectively to
             mitigate the identified risk.

          b. Conducted an on-site survey and internal control assessment




                                               2
               c. Prepared a survey and internal control assessment report that included a summary
                  of the results of the on-site audit survey and testing of significant internal
                  controls.

               d. Prepared a substantive audit testing planning document that included the proposed
                  audit program including sections on tests of compliance with applicable laws and
                  regulations, and substantive testing procedures to determine whether costs
                  charged to the NSF award(s) by the awardee are allowable, allocable, and
                  reasonable in accordance with the applicable Federal cost principles and award
                  terms and conditions.

       Our audit was conducted in accordance with auditing standards generally accepted in the
United States of America, Government Auditing Standards, (1999 Revision) issued by the
Comptroller General of the United States of America.

SUMMARY OF AUDIT RESULTS

        The results of our audit on SCI and CSMI’s Schedule of Award Costs are qualified to the
extent that we were not able to determine whether material amounts of claimed costs SCI and
CSMI charged to its two NSF awards were allowable, allocable, and reasonable in accordance
with applicable federal cost principles and NSF award terms and conditions. In addition, SCI
and CSMI did not maintain adequate internal controls to provide reasonable assurance of
compliance with these requirements. As a result, we found a material non-compliance and
questioned 34 percent, or $921,489 of claimed costs ($204,667 and $716,822 under Award
Numbers ESI-0201155 and ESI-9904457, respectively).

        CSMI did not comply with OMB Circular A-133 that requires a single or program
specific audit for entities that expend $300,0001 or more in a year in Federal awards. No such
audit was performed even though CSMI had Federal expenditures of $1,042,565 and $774,553 in
2000 and 2001, respectively.

        The financial management, cost-sharing, cash management, and personnel systems used
by SCI and CSMI were inadequate to provide for segregation of key accounting duties, adequate
documentation, cost segregation, or compliance with the terms of the award agreements.
SCI/CSMI did not have an adequate segregation of key accounting duties. In particular, a
consultant, without any independent oversight performed key accounting functions. In addition,
82 percent or $2.1 million of claimed cost sharing was not initially verifiable from SCI/CSMI
records and the annual required cost-sharing certification and reporting to NSF was not
performed as required. Further, the accounting system did not provide for an adequate
segregation between direct and indirect costs, invoices were not coded to specific projects,
payroll billing rates were not documented in employee personnel files, and timesheets supporting
claimed salary and wage costs were missing or inadequate. SCI/CSMI did not calculate its
actual annual employee benefit costs resulting in the improper allocation of $211,023 to the
awards. Finally, SCI/CSMI did not submit annual indirect cost proposals to NSF to establish

1
    For fiscal years ending after December 31, 2003 the Single Audit Expenditures threshold is $500,000.


                                                           3
final indirect cost rates or calculate its actual in-house film production costs resulting in
$298,554 and $246,445, respectively, of costs questioned as unsupported.

        As a result of these material control weaknesses, SCI and CSMI were unable to support
34 percent or $921,489 of its claimed costs. The magnitude and pervasiveness of the financial
management, cost sharing, cash management, and personnel compensation system deficiencies
identified in this report suggest an overall control environment at SCI/CSMI that warrants
immediate attention and corrective actions toward establishing good internal controls and
compliance with Federal award terms and conditions. SCI/CSMI management should play a key
role in providing leadership in this area, especially in setting and maintaining the organization’s
expectations and commitment to financial performance. However, the reliance on one individual
to perform all key accounting functions, an overall lack of knowledge of Federal regulations
evidenced by SCI/CSMI staff, and the inadequate systems to properly account for 34 percent of
claimed costs indicate the need for SCI/CSMI management to recognize the seriousness of its
grants management control deficiencies and to place a high priority on addressing these
deficiencies. Until corrective action is taken, NSF has little or no assurance that SCI/CSMI will
record, process, summarize, and report award costs and cost sharing in accordance with the
award terms and conditions. The material weaknesses we identified in the control structure
combined with a lack of management and staff awareness of Federal regulations places NSF’s
awards at a high risk that fraud and/or abuse could occur and not be detected.

        Accordingly, we recommend that the NSF Directors of the Division of Grants and
Agreements (DGA) and the Division of Institution and Award Support (DIAS) direct SCI/CSMI
to develop and implement a financial management system and policies and control processes to
effectively administer and monitor NSF funds, including (1) maintaining documentation
supporting all award costs for the time period required by the NSF award provisions, (2)
implementing an accounting system to separately identify, track, and report on NSF and shared
costs, (3) ensuring all expenses are reviewed for allowability, allocability, reasonableness, and
approved by an appropriate supervisor(s), and (4) training personnel to be knowledgeable of
Federal grant regulations. We also recommend that the NSF Director of DIAS recognize
SCI/CSMI as a high-risk awardee under its risk-management program and not grant new NSF
awards to these organizations until SCI/CSMI has developed a corrective action plan and
implemented actions to address its grants financial management and internal control deficiencies.

      For a complete discussion of these findings, refer to the Independent Auditors’ Report on
Compliance with Laws and Regulations and Internal Control over Financial Reporting.

Summary of Auditee's Response

        SCI/CSMI management stated that as an organization, both SCMI and CSMI evolved
significantly over the grant periods, which covered a span of four years from 1999 to 2003.
They believe that in general the audit report fails to note or address the relative improvements
made from 2001 to the present. For example, since early 2002, SCI/CSMI stated it has added
additional resources and more expertise managing its financial functions. In addition, since the
audit by Foxx & Company, SCI/CSMI stated it has upgraded its accounting software, developed




                                                4
a new chart of accounts, and has documented and developed indirect cost, fringe benefit and
production cost pools for 1999-2003.

         SCI/CSMI agreed with several findings. Specifically, CSMI did not perform Single
Audits for the years ended December 31, 2000, and December 31, 2001; the fringe benefits rates
charged to the grants exceeded the rates that can be justified from its actual costs; the calculation
to determine an hourly billing rate for employees was incorrectly based on 35 hours per week;
SCI “double-billed” a monthly invoice from ScienCentral (as sub-awardee) to CSMI in May
2001, which resulted in $44,458 in overcharges to ESI-9904457; and, SCI/CSMI agrees that
there were issues with a few timesheets and billing hours as noted in Q77, Q78 and Q87 for a
total of $3,105.

       However, SCI/CSMI believes that the remainder of the questioned costs can be justified
under NSF and Federal grant guidelines and looks forward to discussing the remaining
questioned costs with NSF/CAAR in the near future.


EXIT CONFERENCE

     An end of fieldwork exit conference was held on December 18, 2003, at the SCI office in
New York, New York.

       Findings and recommendations contained in this report, as well as other observations
were discussed with those attending:

       Representing SCI and CSMI was:

           Name                                           Title
       XXXXXXXXX                                      XXXXXXXX
       XXXXXXXXXX                                     XXXXXXXXXXXXXX

       Representing Foxx & Company were:

           Name                                       Title
       XXXXXXXXXXXX                           XXXXXXXXXXXXX
       XXXXXXX                                XXXXXXXXXXXXX




                                                 5
AUDIT FINDINGS AND RECOMMENDATIONS
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

         INDEPENDENT AUDITOR’S REPORT ON FINANCIAL SCHEDULES

We have audited the costs claimed by ScienCentral, Inc. (SCI), and Center for Science in the
Media, Inc. (CSMI) to the National Science Foundation (NSF) on the Federal Cash Transactions
Reports (FCTR) – Federal Share of Net Disbursements for the NSF awards listed below. The
FCTRs as presented in the Schedules of Award Costs (Schedules A-1 and A-2), are the
responsibility of SCI and CSMI management.

          Award Number                  Award Period                 Audit Period
       ESI-0201155               March 1, 2002 to               March 1, 2002 to
                                 July 31, 2004                  September 30, 2003
       ESI-9904457               September 1, 1999 to           September 1, 1999 to
                                 August 31, 2004                September 30, 2003

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, Government Auditing Standards (1999 Revision) issued by the Comptroller
General of the United States of America, and the National Science Foundation Audit Guide
(September 1996), as applicable. These standards and the National Science Foundation Audit
Guide require that we plan and perform the audit to obtain reasonable assurance about whether
the amounts claimed to the NSF as presented in the Schedules of Award Costs (A-1, A-2 and A-
3) are free of material misstatement. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the Schedules of Award costs. An audit also includes
assessing the accounting principles used and significant estimates made by SCI and CSMI
management, as well as evaluating the overall financial schedule presentation. We believe that
our audit provides a reasonable basis for our opinion.

The accompanying financial schedules were prepared to comply with the requirements of the
National Science Foundation Audit Guide as described in the Notes to the Schedules, and are not
intended to be a complete presentation of financial position in conformity with accounting
principles generally accepted in the United States of America.

Schedules B-1 and B-2 present costs totaling $921,489 that are questioned as to their allowability
under the award agreements. Questioned costs are (1) costs for which there is documentation
that the recorded costs were expended in violation of the law, regulations or specific conditions



                                                6
of the award, (2) costs that require additional support by the awardee, or (3) costs that require
interpretation of allowability by the National Science Foundation – Division of Acquisition and
Cost Support (DACS). The National Science Foundation will make the final determination
regarding whether such costs are allowable. The ultimate outcome of this determination cannot
presently be determined. Accordingly, no adjustment has been made to costs claimed for any
potential disallowance by NSF.

We used nonstatistical sampling to test the non-salaries and wages costs claimed by SCI and
CSMI and to test for compliance with Federal award requirements. Based on this sampling plan,
questioned costs in this report may not represent total costs that may have been questioned had
all expenditures been tested. In addition, we made no attempt to project such costs to total costs
claimed, based on the relationship of costs related to total costs.

In our opinion, except for the effects on questioned costs, if any, that may have been determined
to be necessary if all salaries and wages costs claimed had been tested, the Schedules of Award
Costs (Schedules A-1 and A-2) referred to above present fairly, in all material respects, the costs
claimed on the Federal Cash Transactions Reports – Federal Share of Net Disbursements for the
period September 30, 1999 to September 30, 2003 in conformity with the National Science
Foundation Audit Guide, NSF Grant Policy Manual, terms and conditions of the NSF award
requirements, and on the basis of accounting described in the Notes to the Financial Schedules.

In accordance with Government Auditing Standards and the provisions of the National Science
Foundation Audit Guide, we have also issued a report dated December 18, 2003 on tests of SCI
and CSMI’s compliance with certain provisions of laws, regulations and the NSF award
agreement, and our consideration of SCI and CSMI’s internal control over financial reporting.
That report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be read in conjunction with this report in considering the results of our
audit.

This report is intended solely for the information and use of SCI and CSMI’s management, the
National Science Foundation, the Office of Management and Budget, and the Congress of the
United States and is not intended to be and should not be used by anyone other than these
specified parties.




Foxx & Company
December 18, 2003




                                                7
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

    INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE WITH LAWS AND
   REGULATIONS AND INTERNAL CONTROL OVER FINANCIAL REPORTING

We have audited the Schedules of Award Costs as presented in Schedules A-1 and A-2, which
summarize the financial reports submitted by ScienCentral, Inc. (SCI) and Center for Science in
the Media, Inc. (CSMI) to the National Science Foundation (NSF) for the awards listed below
and have issued a qualified report thereon dated December 18, 2003.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, Government Auditing Standards (1999 Revision) issued by the Comptroller
General of the United States of America, and the National Science Foundation Audit Guide
(September 1996), as applicable.

COMPLIANCE WITH LAWS AND REGULATIONS

As part of obtaining reasonable assurance about whether the financial schedules are free of
material misstatement, we performed tests of SCI’s and CSMI’s compliance with certain
provisions of laws, regulations, and the NSF award terms and conditions, noncompliance with
which could have a direct and material effect on the financial schedules. However, providing an
opinion on overall compliance with such provisions was not an objective of our audit of the
financial schedules. Accordingly, we do not express such an opinion. The results of our tests
disclosed an instance of noncompliance, which is required to be reported under Government
Auditing Standards. See Finding I below.

INTERNAL CONTROLS OVER FINANCIAL REPORTING

In planning and performing our audit of Schedules of Award Costs (Schedules A-1 and A-2), we
considered SCI’s and CSMI’s internal control over financial reporting in order to determine our
auditing procedures for the purpose of expressing our opinion on the financial schedules and not
to provide assurance on the internal control over financial reporting. Our consideration of
internal control over financial reporting would not necessarily disclose all matters in the internal
control over financial reporting that might be material weaknesses under standards established by
the American Institute of Certified Public Accountants. A material weakness is a condition in


                                                 8
which the design or operation of one or more of the internal control components does not reduce,
to a relatively low level, the risk that misstatements in amounts that would be material in relation
to the financial schedules being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. However, we noted
several matters involving internal control and its operation that we consider to be material
weaknesses as defined above. See Findings II through IV below.

This report is intended solely for the information and use of SCI and CSMI’s management, the
National Science Foundation, the Office of Management and Budget, and the Congress of the
United States and is not intended to be and should not be used by anyone other than these
specified parties.



Foxx & Company
December 18, 2003




                                                 9
FINDINGS AND RECOMMENDATIONS

I.      OMB Circular A-133 Audit Requirement Not Met

        NSF’s GC-1, Section 23.e, in part, states that awardees that are non-profit organizations
shall arrange for the conduct of audits, as required by OMB Circular A-133, Audits of States,
Local Government, and Non-Profit Organizations. It further states that the Awardee shall
provide copies of the reports of these audits to the cognizant Federal audit agency. OMB
Circular A-133, Subpart B states, “Non-Federal entities that expend $300,000 or more in a year
in Federal awards shall have a single or program-specific audit conducted for that year in
accordance with the provisions of this part.”

       For the years ended December 31, 2000 and 2001, CSMI, a non-profit organization, had
Federal expenditures of $1,042,565 and $774,553, respectively, under Award Number
ESI-9904457. Because the expenditures for these years exceeded the $300,000 audit threshold, a
Single Audit was required. However, CSMI did not obtain the required single audits.

        One objective of the Single Audit is to, through repeated exposures to a structured audit
process; promote strong financial management, including effective internal controls, with respect
to Federal awards administered by non-Federal entities. This objective, however, was not met.
Our audit of award ESI-9904457 identified $716,822 of award costs that were unallowable, not
supported by adequate documentation, or were not supported by cost allocation plans that were
approved by NSF, the awardees’ cognizant Federal agency (see Schedule A-2). Additionally,
SCI/CSMI did not have adequate financial management, cost sharing, or personnel compensation
systems to record, process, summarize, and report financial information or to ensure the NSF
awards were administered in compliance with the awards’ terms and conditions. If the required
Single Audits had been obtained, the deficiencies disclosed in this audit could have been
identified and corrective actions implemented on a timelier basis. Discussions with SCI/CSMI
senior management personnel found that they were not aware of the NSF grant conditions and
the OMB A-133 requirement to obtain a Single Audit.

        The OMB Circular A-133 audit requirement is a basic requirement applicable to all
Federal agencies and awards made to states, local governments, and non-profit organizations.
The awardees’ lack of awareness with this basic requirement raises very serious concerns about
its familiarity with other equally important NSF award requirements. Therefore, until corrective
action is taken and awardee staff receives training in the cost principles and administrative
requirements applicable to NSF and other Federal awards, NSF has little or no assurance that
SCI/CSMI will have the knowledge to establish and maintain adequate financial and
administrative systems to properly administer its NSF awards.

        Recommendation No. 1 – We recommend that the NSF Directors of DGA and DIAS,
prior to making new awards, ensure that:

     a. CSMI comply with the requirements of the OMB Circular A-133 by obtaining the
        required audits for the years ended December 31, 2000 and 2001; and,



                                               10
      b. CSMI management and appropriate staff personnel obtain training in the Federal cost
         principles and administrative requirements.

         Auditee's Response

                 CSMI agrees that it did not perform single audits of its financial records and
         federal grant documentation for the years ended December 31, 2000 and December 31,
         2001. If the NSF directs CSMI to perform the audits at this time, it is willing to do so,
         but notes that Foxx & Company has already examined the Company rigorously during
         the course of the audit. However, to ensure compliance in the future we have developed a
         corrective action plan.

         Corrective Action Plan

         1.     SCI engaged XXXXXXXX, the world’s XXXXXX accounting firm,
                which specializes in performing OMB Circular A-133 and grant audits, to
                review SCI/CSMI accounting and reporting systems and suggest improvements.
         2.     SCI is training and will continue to train its staff on all changes and new
                written procedures, in addition to the ones already in place, to ensure staff
                compliance.
         3.     Audits in accordance with OMB Circular A-133 will be performed for
                future periods.

         Auditor's Response to Auditee's Response

               CSMI did not comply with the requirements of OMB Circular A-133 and our
         recommendation remains unchanged.

II.      Systemic Issues

        SCI/CSMI did not have an adequate financial management, cost sharing, cash
management, or personnel and payroll systems and internal controls with adequate checks and
balances in place to properly administer NSF awards. As a result, SCI/CSMI was unable to
properly account for 34 percent of its claimed costs. The following sections describe the results
of our audit in these areas.

      A. The Financial Management System is Inadequate

        OMB Circular A-110, requires a financial management system that provides for accurate,
current, and complete disclosure of the financial results of each Federal award; records that
adequately identify the source and application of funds; effective control over and accountability
for all funds, assuring that all funds are used solely for authorized purposes; comparison of
outlays with budget amounts for each award in accordance with the provisions of the applicable
Federal and NSF award requirements, and accounting records including cost accounting records
that are supported by source documentation. The Circular also requires that grantees maintain



                                                11
written procedures for determining the reasonableness, allocability and allowability of costs in
accordance with the provisions of the applicable Federal cost principles and the terms and
conditions of the award.

        SCI and CSMI used a small business accounting software package to record financial
transactions, print checks and generate a general ledger. The software, intended for use by small
commercial businesses, did not readily and separately track the results of each Federal award.
Therefore, to accomplish this separate tracking requirement, the CFO manually entered financial
data for each award from the accounting system into off-line electronic spreadsheets. The CFO
prepared these spreadsheets each quarter, based on general ledger and payroll reports,
timesheets, and allocations of direct costs documented on original invoices. The CFO then used
the spreadsheets as the basis to report quarterly grant expenditures to NSF on the Federal Cash
Transaction Reports (FCTR). The CFO was solely responsible for inputting data into the
accounting system, preparing the electronic grant tracking spreadsheets, and reporting grant
expenditures to NSF.

        Accordingly, while SCI/CSMI maintained an accounting system to track costs of NSF
awards, we found that overall that it did not have an adequate financial management system and
internal controls with adequate checks and balances in place to properly administer NSF awards.
Specifically:

   •   SCI/CSMI did not have adequate segregation of key accounting duties. For example, at
       SCI/CSMI, the CFO approved invoices for payment, recorded the transactions in the
       accounting system, prepared the financial reports, and prepared bank reconciliations, all
       without independent supervisory review to ensure that transactions were incurred for
       authorized purposes. In testing a sample of claimed costs, we found 37 items where
       SCI/CSMI could not provide source documentation resulting in $47,924 of questioned
       costs. We were unable to determine whether the costs were reasonable, allowable and
       allocable to the NSF awards. Without adequate segregation of key accounting duties, the
       risk remains that errors or irregularities could occur and not be detected by management.

   •   In testing a sample of reported expenditures, we found one instance where the same costs
       were claimed twice. This error was not discovered by the CFO because he did not
       reconcile the electronic grant spreadsheets to the general ledger to ensure the
       spreadsheets were reliable as a basis to prepare the FCTR. As a result, we questioned
       $44,458 of costs claimed under ESI-9904457 (See Schedule B-2, Note 2.6).

   •   SCI/CSMI used interim billing rates rather than actual annual employee benefit rates to
       calculate charges to the NSF awards resulting in the disproportionate allocation of
       $211,023 to the NSF awards; did not submit annual indirect cost proposals to NSF to
       establish final indirect cost rates resulting in $298,554 of unsupported cost; and, used
       industry standard rates rather than actual rates to calculate in-house film production
       charges to the NSF awards resulting in $246,445 of unsupported costs. Overall, the
       improper and unsupported allocation of employee benefit, indirect, and production costs
       to the NSF awards resulted in total questioned costs of $756,022, or 28 percent of total
       claimed costs.


                                               12
   •   In testing a sample of other direct costs, we found 15 items where SCI/CSMI could not
       provide adequate documentation to support $13,243 of claimed costs. As a result, we
       could not determine whether the costs were allowable, allocable, and reasonable.

   •   The accounting system did not segregate direct and indirect costs. Costs that appeared to
       be indirect in nature such as telephone service, web-site hosting, internet service, and
       legal fees were incorrectly direct charged to the NSF awards resulting in $21,072 of
       questioned costs (See Schedule B-1, Note 3 and Schedule B-2, Note 2.4.)

   •   SCI/CSMI did not maintain adequate written procedures for determining the
       reasonableness, allocability and allowability of costs in accordance with the terms and
       conditions of its NSF awards.

   B. Grantee did not Maintain Adequate Cost Sharing Documentation

        OMB Circular A-110, requires that all contributions, including cash and third party in-
kind, shall be accepted as part of the recipient’s cost sharing when such contributions meet all of
the following criteria: are verifiable from the recipient’s records; are not paid by the Federal
Government under another award, except where authorized by Federal statute to be used for cost
sharing, and are allowable under the applicable Federal cost principles. It further states that if
the awardee’s cost participation includes in-kind contributions, the basis for determining the
valuation for services and materials must be documented.

       Additionally, NSF’s GC-1, Section 21.d, states that in cases where the cost-sharing
requirements of the award are $500,000 or more, the amount of cost-sharing must be
documented (on an annual and final basis), certified by the authorized organizational
representative and reported to the NSF program officer.

        SCI and CSMI were required to provide cost sharing of $1,152,000 and $1,930,000 under
Award No. ESI-0201155 and Award No. ESI-9904457, respectively. The proposed cost sharing
consisted of the following: network support from XX Television Network, donated footage from
XXX and others, and other in-kind costs, such as advertisements, shipping costs, footage
licenses, research, contributed videos and in-house production costs. To track and monitor cost
sharing, SCI and CSMI used a database to record the sources and minutes of video footage used
and a spreadsheet to assign value to the minutes. For donated goods and services, except for
donated footage and services donated by XX, SCI maintained an “in-kind contribution form”
which detailed the goods and services received and their value.

        During the audit period, we found that SCI/CSMI did not always follow their procedures
to maintain “in-kind contribution forms” documenting the contributions received from XX News
and other sources of support. For example, SCI/CSMI relied on a pre-award contractual
agreement with XX News to document the services to be provided, estimate their value, and
claim costs for our audit. However, the services and their values claimed during the audit
differed substantially from those documented in the agreement. In addition, SCI/CSMI claimed
the cost of video footage from other federally-funded sources such as the XXX public television


                                                13
station and the National Aeronautics and Space Administration without verifying that the footage
was not paid by the Federal Government under another award; claimed program income earned
from the sale of items funded by the NSF awards as cost sharing; and did not document, certify,
and report its actual cost sharing contributions annually to NSF. As a result of these deficiencies,
we initially questioned $2.1 million or 82 percent of the total $2.6 million claimed cost sharing
because the claimed amounts were not verifiable from SCI/CSMI’s records.

       However, in August 2004, in response to a discussion draft of this report, SCI/CSMI
obtained letters from its major sources of donated services including XX News attesting to the
revised valuations of the donated footage and services claimed during the audit period.
Accordingly, we reduced the amount of questioned cost sharing from $2.1 million to $58,250,
which represents program income earned from the sale of items funded by the NSF awards.

         While SCI/CSMI was ultimately able to demonstrate that it met its cost-sharing
obligations under the awards, it needs to improve how it documents, certifies, and reports cost
sharing to ensure that its cost-sharing system provides accurate, current, and complete disclosure
of its actual cost sharing contributions by award in a timely manner.

   C. Inadequate Documentation to Support Salaries and Wages

       SCI/CSMI did not have an adequate system to ensure salary and wage costs claimed were
documented, allowable and allocable to the grant awards. Because of inadequacies in SCI/CSMI
accounting records related to reporting salaries and wage costs, we questioned $109,234 or forty-
four percent of the $232,331 in salaries and wages tested in the audit.

        OMB Circular A-110 and the FAR require that grantees maintain accounting records
including cost accounting records that are supported by source documentation to demonstrate
that costs have been incurred and are allocable and allowable to a particular Federal award. In
addition, the NSF GC-1 requires documentation of reviews and approvals for each expenditure
or action affecting this award. The organizational reviews are intended to help assure that
expenditures are allowable, necessary and reasonable for the conduct of the project.

        Personnel Compensation. When a staff position is vacant, or a new position is
established, the CEO and CFO orally authorize the hiring manager to fill the position and
provide the accepted rate of pay. When an offer is made, the hiring manager orally
communicates the accepted rate of pay to the employee. All new hires are provided the standard
packet of forms (i.e., W-4, I-9, etc.) and an employee personnel file is established. Salary and
hourly rates are recorded in the payroll system. In addition, all employees are eligible for an
annual pay raise each October. Annually, the CFO creates a worksheet listing the old and
recommended pay rates and submits it to the CEO for review and approval. The CEO’s approval
is communicated back to the CFO orally and salary raises are communicated to each employee
orally.

        Timekeeping. Prior to January 12, 2003, each employee recorded his or her hours
worked on an Excel worksheet each day. At the end of the week the employees would print and
sign their weekly timesheet and submit it to their supervisor for approval. Effective January 12,



                                                14
2003, SCI implemented XXXXXXXXXX, an online timekeeper. Daily, employees sign-in,
enter the work activities, and sign-out. The hours worked are calculated by XXXXXXXXX.
For payroll and/or billing purposes, the employee’s supervisor opens XXXXXXXXX and
reviews each employee’s hours and activities. If the hours and activities charged are correct, the
supervisor sends an e-mail approval notification to the CFO who then prints the timesheet. The
total hours on the printed timesheets are transmitted to a payroll service to generate paychecks.

        Despite these requirements, we identified questioned costs and weaknesses in SCI/CSMI
processes to ensure that payroll costs charged to NSF awards are properly authorized and
documented. In testing a sample of salaries and wages, SCI did not provide 21 of 96 timesheets
for our review resulting in $40,232 of unsupported cost questioned (see Schedule B-2, Note 2.1).
Further, on 38 of the 75 timesheets provided, the number of hours charged to the awards was less
than the hours documented on the timesheets as directly attributable to an NSF award. As a
result, we questioned costs of $58,820 (see Schedule B-2, Note 2.1) and $8,001 (see Schedule B-
1, Note 1) under Award No. ESI-9904457 and Award No. ESI-0201155, respectively. Finally,
SCI miscalculated the billing rates used to allocate payroll costs to Award No. ESI-0201155,
resulting in the improper allocation of $2,181 (see Schedule B-1, Note 1). The improper
allocation occurred because SCI calculated the hourly billing rates using a 35-hour workweek
rather than the required 37.5 hour workweek and did not document annual salary amounts or
hourly billing rates in employee personnel files. Overall, these errors indicate that SCI/CSMI’s
timesheet review procedures and payroll allocation and documentation practices were not
effective in preventing or timely detecting errors.

   D. SCI Maintained Excess Cash Balances

       OMB Circular A-110 states that cash advances to a recipient organization shall be limited
to the minimum amounts needed and be timed to be in accordance with the actual, immediate
cash requirements of the recipient organization in carrying out the purpose of the approved
program or project. Further, the timing and amount of cash advances shall be as close as is
administratively feasible to the actual disbursements by the recipient organization for direct
program or project costs and the proportionate share of any allowable indirect costs. The Circular
also requires recipients to maintain advances of Federal funds in an interest bearing account,
remit annually interest earned on advances, and have written procedures documenting its cash
advance procedures. NSF Grant General Conditions 1.b.1 states that NSF has determined that
OMB Circular A-110 standards are also applicable to commercial organizations. Therefore, this
finding relates to both awards.

       The CFO prepared and submitted weekly cash draws for the NSF awards through NSF’s
online FastLane system. The draws consisted of reimbursement for vendor and internal usage
costs and cash advances for payroll costs. Each week, the CFO prepared the draw using time
and effort reports, check registers, invoices, and internally generated cost worksheets. The
information was entered into a “Grant Reimbursement Worksheet” and totaled to calculate the
expenses for the week. The CFO entered this amount into FastLane and the cash was transferred
into SCI/CSMI’s checking account.




                                               15
      These procedures, however, did not minimize the time elapsing between the cash
advances related to payroll costs and the actual disbursement of these funds by SCI/CSMI.
Although cash was received weekly to cover payroll costs, SCI/CSMI only paid its employees
monthly.

        As a result, SCI/CSMI had approximately $25,000 to $75,000 excess cash on hand for
one to three weeks each month during the audit period and did not maintain the cash in an
interest bearing account. While these amounts are not material to the U.S. Treasury as a whole,
advances of cash that are not timed to minimize the excess cash balances have an impact on the
U.S. Treasury’s financing costs and the level of the public debt. As such, SCI/CSMI should limit
its cash advances for payroll costs to once a month and be timed as closely as possible to
coincide with the actual disbursement of paychecks to employees.

Overall Effect of the Systemic Internal Control Weaknesses

        The magnitude and pervasiveness of the financial management, cost sharing, cash
management, and personnel compensation system deficiencies identified in this report suggest an
overall control environment at SCI/CSMI that warrants immediate attention and corrective
actions toward establishing good internal controls and compliance with federal award terms and
conditions. SCI/CSMI management should play a key role in providing leadership in this area,
especially in setting and maintaining the organization’s expectations and commitment to
competent performance. However, the reliance on one individual to perform all key accounting
functions, an overall lack of knowledge of Federal regulations evidenced by SCI/CSMI staff, and
the inadequate systems to properly account for 34 percent of claimed costs indicate the need for
SCI/CSMI management to recognize the seriousness of its grants management control
deficiencies and to place a high priority on addressing these deficiencies. Until corrective action
is taken, NSF has little or no assurance that SCI/CSMI will record, process, summarize, and
report award costs and cost sharing in accordance with the award terms and conditions. The
material weaknesses we identified in the control structure combined with a lack of management
and staff awareness of Federal regulations places NSF’s awards at a high risk that fraud and/or
abuse could occur and not be detected.

       Recommendation No. 2:

       We recommend that the NSF Directors of DGA and DIAS require that SCI/CSMI
develop and implement written policies and procedures to:

       a. Provide an accounting system that separately identifies, tracks, and reports on NSF
          and shared costs by individual award;

       b. Ensure adequate segregation of key accounting duties between the authorization,
          custody, recording, and reconciliation of accounting transactions;

       c. Implement a system to ensure that in-kind contributions received are properly valued,
          documented, and reported in accordance with Federal regulations;




                                                16
d. Obtain cash advances for payroll and other costs as close as administratively feasible
   to the actual disbursements; and,

e. Strengthen its procedures related to the documentation, review, and allocation of
   salary and wage costs charged to Federal awards.

Auditee's Response

a.     On April 1, 2004, ScienCentral implemented a new accounting system XXXXXX
       designed for organizations managing multiple grants. SCI developed a new chart
       of accounts that allows for the segregation of grants by account, and segregates
       indirect, direct and production cost pools.

b.     SCI/CSMI agrees it did not have proper segregation of all accounting duties in the
       past and the accounting system did not allow for tracking of individual grants. It
       is the opinion of SCI/CSMI management that it has made significant
       improvements over the past few years and the future plan of action will mitigate
       any further risks.

c.     SCI/CSMI agrees that it did not provide cost sharing certification through
       FASTLANE in the years mentioned in the report; however it did provide its NSF
       program officer with annual reports that included the cost-sharing amounts.

d.     With the new accounting system implemented in April 2004, SCI/CSMI was able
       to develop a new procedure for timing payroll reimbursements closer to the
       monthly payroll disbursement.

e.     SCI/CSMI agrees that merit increases were communicated orally in the past, but
       this policy has been changed whereby the increases are communicated in writing
       and retained in the personnel files.

       SCI/CSMI believes that the majority of the $109,234 in questioned salary costs
can be justified by documentation supplied already to Foxx & Company. The auditee
disagrees with the findings on $107,053 of the questioned salary costs.

Auditor's Response to Auditee's Response

        With respect to recommendations 2.a., and 2.d., the proposed corrective actions
address the identified deficiencies. We recommend that Director’s of NSF’s DGA and
DIAS require that SCI/CSMI provide NSF with documentation that its new systems and
policies and procedures have been revised and implemented.

       With respect to recommendation 2.b., 2.c., and 2.e., SCI/CSMI should provide to
NSF additional details on the corrective actions to (1) mitigate the risk associated with
the lack of segregation of duties, (2) implement a system to ensure that in-kind
contributions received are properly valued, documented, and reported in accordance with



                                       17
           Federal regulations, and (3) strengthen its procedures related to the documentation,
           review, and allocation of salary and wage costs charged to NSF awards.

                   The auditee disagrees with the majority of the questioned salary costs. The
           auditee's responses address evidence that the costs were incurred; however, it does not
           provide conclusive evidence that the incurred costs were allocable to the grants. The
           costs remain questioned. (See Schedules B-1 and B-2)

III.       Allocation Issues

        SCI/CSMI did not calculate its actual annual employee benefit costs resulting in the
improper allocation of $211,023 to the awards; did not submit annual indirect cost proposals to
NSF to establish final indirect cost rates resulting in $298,554 of unsupported cost; and, did not
calculate its actual in-house film production and equipment maintenance and update costs
resulting in $246,445 of unsupported costs. Overall, the improper and unsupported allocation of
employee benefit, indirect, and production costs to the awards resulted in total questioned costs
of $756,022, or 28 percent of total claimed costs. The following sections describe in detail the
results of our audit in these areas.

       A. Claimed Employee Benefit Costs Exceed Actual Costs

        In accordance with OMB Circular A-122 and the FAR, fringe benefit costs are allowable
provided the charges are reasonable, equitably distributed, and granted in accordance with the
awardee’s established written policies and procedures. Further, A-122 states that the Federal
agency with the largest dollar value of awards with an awardee will be responsible for the
negotiation and approval of the indirect cost rates and, where necessary, other rates such as
fringe benefit rates.

To charge the employee benefit costs to the awards, SCI/CSMI used interim rates:

       •   On ESI-9904457, CSMI applied 36.86 percent to its direct salaries and wages. SCI used
           a rate of 31.91 percent under the subaward from CSMI;

       •   On ESI-0201155, SCI applied 35.08 percent to direct salaries and wages.

        SCI/CSMI did not calculate its actual annual employee benefit costs to determine
whether its interim rates were reasonable as a basis to charge employee benefit costs to the NSF
awards. Therefore, we initially questioned all claimed employee benefit costs as unsupported.
However, in response to our Discussion Draft report, SCI calculated its actual employee benefit
rates from 1999 to CY 2003 as noted in the table below:

                         Calendar Year                 SCI           CSMI
                             1999                     16.1%
                             2000                     16.1%
                             2001                     11.0%
                             2002                       -            23.1%
                             2003                       -            12.6%


                                                 18
       We reviewed SCI’s proposed employee benefit calculations for overall reasonableness
and other than the 23.1 percent calculated for calendar year 2002, the proposed rates appear
reasonable.2 Therefore, we used the proposed rates as the basis for determining allowable and
reasonable employee benefit costs under the two awards. Because the proposed actual employee
benefit rates were significantly less than the interim rates used to claim these costs, we
questioned costs of $49,473 (See Schedule B-1, Note 2) and $161,550 (see Schedule B-2, Note 1
and Note 2.2), under awards ESI-0201155 and ESI-9904457, respectively.

    B. Indirect Cost Proposals Not Prepared and Submitted Annually

       OMB Circular A-122 states "organizations that have previously established indirect cost
rates must submit a new indirect cost proposal to the cognizant agency within six months after
the close of each fiscal year." NSF is SCI/CSMI’s cognizant agency because NSF provides
SCI/CSMI with all its Federal funding. In addition, the FAR states that indirect costs should be
accumulated to permit distribution of the costs on the basis of the relative benefits received by
multiple cost centers.

        Under award ESI-9904457, NSF established a maximum provisional indirect cost rate
(MPR) of 21 percent of modified total direct costs for CSMI. An MPR “is a temporary rate
established for an award to permit funding and reporting of indirect costs pending establishment
of a final rate (the rate determined at the end of an accounting period using "actual" direct and
indirect cost data). This type of rate limits indirect cost recoveries to the lower of the maximum
provisional rate established at the time of award, or the final rate established at the end of an
accounting period. Grantees awarded maximum provisional rates are required to submit indirect
cost proposals to the NSF…within six months after the close of each fiscal year during which the
award is active.”3 Further, as a subawardee under this NSF award, SCI used a rate of 18 percent
applied to direct costs less subcontracts to allocate indirect costs to the subaward.

        However, CSMI did not submit annual indirect cost rate proposals to NSF for the years
ended December 31, 1999, 2000, 2001, or 2002. The annual submission of an indirect cost
proposal for multi-year awards is critical because conditions often occur that affect these rates
from one year to the next. In particular, MPRs are temporary rates subject to downward
adjustment only and therefore, when NSF establishes final rates, CSMI is vulnerable to an over-
recovery of indirect costs if the final rates are lower than the maximum provisional rates (MPR).
During our audit, we found that CSMI did not prepare and submit indirect cost proposals.
Additionally, SCI, as a subawardee, did not prepare annual indirect costs plans for the same
fiscal years 1999 to 2002. As a result, we questioned all indirect cost claimed under Award No.




2
         For purposes of this audit, the proposed actual rates were used, except for calendar year 2002. For 2002,
the 2003 rate was used which approximated the rate calculated in our reasonableness review. The proposals for all
years are subject to negotiation and final approval by NSF.
3
        NSF’s Grant Policy Manual, Section 630.



                                                       19
ESI-9904457 and its subaward, totaling $9,016 (See Schedule B-2, Note 1) and $289,538, (See
Schedule B-2, Note 2.7), respectively.4

    C. Rates Used to Allocate In-House Production Costs to the Awards are Unsupported

        OMB Circular A-110 and the FAR require that awardees maintain accounting records
including cost accounting records that are supported by source documentation to demonstrate
that costs have been incurred and are allocable and allowable to a particular Federal award. In
addition, NSF’s GC-1 requires documentation of supervisory reviews and approvals for
expenditures or actions affecting NSF awards. These organizational reviews are intended to help
assure that expenditures are allowable, necessary and reasonable for the conduct of the project.
Further, OMB Circular A-122 states that the costs of specialized service facilities must be
charged directly to particular awards based on the actual usage of the services and using a
schedule of standard rates or an established methodology that is designed to recover only the
total cost (direct and indirect) of the service. Finally, to avoid subsequent disallowance or
dispute based on unreasonableness of costs, OMB also recommends that awardees’ seek a
written agreement with the awarding agency in advance of the incurrence of special or unusual
costs.

       To recover its in-house production costs (editing, dubbing and sound facilities, camera
equipment, and archived footage costs), SCI/CSMI charged the awards using industry standard
rates. SCI/CSMI maintained manual logs to record and summarize actual facilities and archive
video footage used for and charged to the NSF awards.

       While SCI/CSMI maintained manual logs to document the actual usage of its in-house
production facilities for the benefit of NSF awards, it did not maintain a schedule of rates or have
an established methodology for calculating production rates to ensure that it only recovered the
aggregate cost of the in-house services. Rather, SCI/CSMI recovered its in-house production
costs using industry standard rates. However, industry standard rates are likely to be different
than SCI/CSMI’s actual costs. Because documentation was not presented to support actual rates,
we were not able to analyze the actual rate (cost data) with the industry standard rate and
determine if the rates (costs) were allowable and reasonable. As a result, we questioned all the
in-house production costs of $25,154 (See Schedule B-2, Note 2.5) and $133,013 (see Schedule
B-1, Note 4) under Award Numbers ESI-9904457 and ESI-0201155, respectively.

       In addition, SCI charged equipment updates and maintenance costs directly to the
subaward under award ESI-9904457. The costs incurred for updates and maintenance, however,
were already included and recovered via the use of the in-house production rates and therefore,
the costs should not be charged directly to NSF. Further, these types of costs are typically
recovered through an indirect cost rate. As a result, we questioned the entire $88,278 of costs for
equipment updates and maintenance. (See Schedule B-2, Note 2.5)



4
         Subsequent to our audit fieldwork but before we issued our report, SCI provided us with summary indirect
cost rate calculations for fiscal years 1999, 2000, and 2001. The audit of these proposals was not included in the
scope of this audit. These proposals are to be submitted to NSF for review and possible audit.


                                                       20
Overall Cause and Effect of the Allocation Issues

        The above problems occurred primarily because SCI/CSMI management was unaware
that they were required to prepare and provide NSF with annual indirect cost rate proposals,
fringe benefit proposals or document their methodology to support in-house production rates
used to allocate costs to the NSF awards. Further, SCI indicated that NSF officials had approved
the use of standard industry rates to assign costs to the awards; however, they were not able to
provide any documentation of such approval.

        The annual submission of an indirect cost, fringe benefit, or specialized service facility
cost proposals for multi-year awards is critical because conditions often occur that affect these
rates from one year to the next. In particular, these rates are generally temporary rates subject to
adjustment based on the awardee’s actual cost experience and therefore, when final rates are
established, an awardee is vulnerable to an over-recovery of costs if the final rates are lower that
the claimed rates. Further, as OMB recommends, awardees should seek a written agreement
with the awarding Federal agency in advance of the incurrence of special or unusual costs.
Therefore, while not specifically required, we believe that SCI/CSMI should prepare and submit
fringe benefit and in-house production rate cost proposals for NSF’s review and approval to
establish final rates.

   Recommendation No. 3:

   We recommend that the NSF Directors of DGA and DIAS require that:

   a. SCI/CSMI develop and implement written policies and procedures that provide for
      preparing and submitting to the cognizant Federal agency annual indirect cost, fringe
      benefit, and production rate cost proposals.

   b. For fiscal years 1999 to 2003, SCI/CSMI prepare and/or submit indirect cost, fringe
      benefit, and production rate cost proposals to NSF for its review and approval.

       Auditee's Response

              SCI/CSMI states that it has documented and developed indirect, fringe benefit and
       production cost pools for 1999-2003, and can now segregate direct vs. indirect costs from
       the accounting system. SCI and CSMI further states that it has used XXXXXXXX from
       the time of an NSF OIG pre-award Audit in 1999 and, the system and its Chart of
       Accounts were deemed acceptable at that time. However, after the current audit,
       SCI/CSMI understood more clearly many of the deficiencies in its financial management
       processes and has now changed the process, including its accounting software and chart
       of accounts.




                                                21
                Corrective Action Plan

            a. SCI/CSMI will submit indirect cost, fringe benefit, and production rate cost
               proposals to the NSF, as CAAR directs.

            b. SCI redesigned the Chart of Accounts within a new accounting system to
               segregate direct expenses by grant and to code other expenses for inclusion in the
               production pool, the indirect cost pool, or non-pool overhead (unallowable
               expenses).

         Auditor's Response to Auditee's Response

                 The auditee's response appropriately addresses the preparation of the indirect,
         fringe benefit, and production rate cost proposals to NSF for its review and approval.
         For future periods, we continue to recommend that SCI/CSMI develop and implement
         written policies and procedures that provide for preparing and submitting to the cognizant
         Federal agency annual indirect, fringe benefit, and production rate cost proposals

IV.      Other Documentation Issues

        SCI/CSMI did not have adequate documentation to support the costs for CFO services
and certain other direct costs claimed under NSF awards. As a result, SCI/CSMI was unable to
support $30,008 and $11,999 for NSF awards ESI-9904457 and ESI-0201155, respectively, for a
total of $42,007 in other direct costs claimed. The following sections describe in detail the
results of our audit in these areas.

      A. Documentation for Certain Other Direct Costs Claimed is Not Available

        OMB Circular A-110 and the FAR require that grantees maintain accounting records
including cost accounting records that are supported by source documentation to demonstrate
that costs have been incurred and are allocable and allowable to a particular Federal award.

        However, under the Award No. ESI-9904457 subaward to SCI, SCI could either (1) not
locate vouchers, purchase orders, invoices and other similar source documents or (2) the
documentation provided did not always contain sufficient information to determine how the cost
benefited the NSF awards. As a result, we questioned $20,935 of other direct costs claimed,
because the allowability and allocability of the charges to the NSF awards could not be
determined. (See Schedule B-2, Note 2.3.)




                                                22
   B. Indirect Type Costs are Charged Directly to the Awards

        OMB Circular A-122 and the FAR states that indirect costs are those that have been
incurred for common or joint objectives (activities or operations) and cannot be readily identified
with a particular activity or operation, such as payroll, and accounting services. It further states
that a cost may not be allocated to an award as an indirect cost if any other costs incurred for the
same purpose, in like circumstances, have been assigned to an award as a direct cost.

        SCI had an approved fixed indirect cost rate for Award No. ESI-0201155; however, SCI
charged CFO services directly to the award. Additionally, CSMI did not have an approved
indirect cost rate nor did it have an indirect cost proposal for Award No. ESI-9904457.
Therefore, we are unable to determine whether certain other direct costs charged to the award
were included in SCI and/or CSMI’s indirect cost rate.

        Specifically, certain CFO billings totaling $11,999, including travel costs for conferences,
conference fees, annual membership fees, cost for business cards, and legal fees, that were
directly charged to Award No. ESI-9904457 and ESI-0201155 do not appear to be allocable to
the NSF projects as direct costs. The CFO billings totaling $11,999 and $9,073 claimed as other
direct costs appear to be more appropriately identified as indirect costs that benefit multiple cost
objectives. Indirect costs should be recovered through an indirect cost rate. Because SCI did not
calculate an indirect cost rate based on actual costs or provide documentation supporting the
items included as indirect cost, it was not possible to determine if these costs were over
recovered, once as direct costs and again as indirect costs.

        As a result, we questioned other direct costs claimed under ESI-0201155 totaling $11,999
and under ESI-9904457 and its subaward to SCI totaling $9,073 because SCI/CSMI did not
calculate indirect rates based on actual costs incurred or provide documentation supporting the
items included in the indirect cost rates. Therefore, it was not possible to determine if these costs
were being claimed twice, as both direct and indirect costs (see Schedule B-1, Note 3 and
Schedule B-2, Note 2.4.)

       Recommendation No. 4:

       We recommend that NSF Directors of DGA and DIAS require SCI/CSMI to develop
       accounting procedures and/or systems that:

       a. Ensure reasonableness, allocability, and allowability of all costs claimed in
          accordance with NSF and Federal requirements as costs are incurred

       b. Properly maintain all supporting documentation; and properly segregate direct and
          indirect charges.

       Auditee's Response

       a. SCI/CSMI indicates that it has written procedures for determining the reasonableness,
          allocability and allowability of costs. There is a section of its Policy & Procedures
          Manual that provides written guidelines.


                                                 23
b. SCI/CSMI stated that it was unable to provide all documents during the auditors’
   fieldwork, especially for ESI-9904457. It was mentioned to the auditors that
   documents were misplaced either during the company relocation from Stamford to
   NY City or after the floods in the Manhattan facility in April 2000 and then in 2003,
   which caused months of disruptions. However, when given a list of the missing
   documents during the fieldwork, SCI/CSMI stated that it promptly began to
   reconstruct the documentation and all of the missing invoices have since been found
   and have been provided to Foxx & Company.

Auditor's Response to Auditee's Response

a. Based on the significant questioned costs identified by the audit, the existing written
   procedures do not appear adequate to ensure the allocability and allowability of all
   costs claimed in accordance with NSF and Federal requirements as costs are incurred.
   The recommendation under 4.a. remains unchanged.

b. The subsequent documentation provided by the auditee was reviewed. To the extent
   that the documentation supported the allocability and allowability of the claimed
   costs, the costs were accepted. The report questions costs where the allocability and
   allowability could not be determined from the documentation provided.




                                       24
                                                                                  SCHEDULE A-1

                                    SCIENCENTRAL, INC.
                                   NEW YORK, NEW YORK

              NATIONAL SCIENCE FOUNDATION AWARD NUMBER ESI-0201155

                               SCHEDULE OF AWARD COSTS

                      For the period March 1, 2002 to September 30, 2003
                                         INTERIM

                                                                                        Schedule B
               Cost                   Approved         Claimed         Questioned          Note
            Category                   Budget           Costs            Costs          Reference
Direct costs:
 Salaries and wages                   XXXXXX            XXXXXX             $10,182           1
 Fringe Benefits                        XXXX              XXXX              49,473           2
Other direct costs
 Material and supplies                                    XXXX                   -
 Consultant services                                      XXXX              11,999           3
 Subawards                              XXXXX            XXXXX                   -
 Other costs                            XXXXX            XXXXX             133,013           4
    Total direct costs                 1,345,204         625,758           204,667

Indirect Costs                           210,147          114,531                  -

Total Costs                           $1,555,351         $740,289         $204,667

Cost Sharing                          $1,152,000         $511,756


  (A) The total claimed costs reconcile with the total expenditures reported by SCI on the Federal
      Cash Transaction Report – Federal Share of Net Disbursements as of the quarter ended
      September 30, 2003. Claimed costs reported were taken from Excel spreadsheet prepared
      from the books of accounts and invoices.




                             See accompanying notes to this financial schedule.




                                                25
                                                                              SCHEDULE B-1

                                   SCIENCENTRAL, INC.
                                  NEW YORK, NEW YORK

            NATIONAL SCIENCE FOUNDATION AWARD NO. ESI-0201155

                           SCHEDULE OF QUESTIONED COSTS

                     For the period March 1, 2002 to September 30, 2003
                                        INTERIM

Note 1 - Salaries and Wages

The questioned salaries and wages of $10,182 represents:

       Hours charged to the grant exceed timesheet hours                  $ 8,001 (A)

       Hourly rate charged to the grant based on erroneous calculation       2,181 (B)
              Total                                                        $10,182

See Finding II.D. for more details.

(A) - There were eight of 22 timesheets tested in which the number of hours charged to the NSF
      award were greater than the number of hours detailed on the timesheets as attributable to
      the award. The difference on these eight timesheets totaled $8,001 in questioned
      unallocable costs.

(B) - The auditee-calculated hourly rates used to determine the amount charged to the NSF
      award is different from the amount paid to the employees. SCI calculated the hourly rate
      using 35 hours per week rather than the 37.5 hours the employee is required to work and is
      paid. As a result, $2,181 is questioned as unallocable costs.

Auditee's Response

(A) The auditee generally disagreed that there are differences between hours billed and
    timesheets. In general, the auditee believes that all hours on the timesheet should be
    allocable to the grant, not just the hours coded to the grant.

(B) The auditee agrees that the hourly billing for employees was incorrectly based on 35 hours
    per week. The auditee indicated that it has changed its methodology for calculating the
    employees' hourly rates.




                                               26
Auditor's Response to Auditee's Response

(A) The employee timesheets provided reflected the employees' allocation of his/her time to the
grants. No additional documentation was provided to support that all hours on the timesheet
should have been charged to the grant. The questioned costs remain.

(B) We concur with the auditee's decision to revise (reduce) its hourly rate to reflect the
employees' actual hours schedules.

Note 2 - Fringe Benefits

       The $49,473 questioned represents fringe benefits cost claimed by SCI in excess of the
allocable fringe benefits based on the fringe benefit rate proposals provided by SCI. (See
Finding III.A.):

                                                                           9 months
                                                              2002           ended            Total
                                                                           09/30/03
        Total salaries and wages claimed                   XXXXXX           XXXXX             $214,379

        Questioned salaries and wages                        (10,182)                         (10,182)

        Net salaries and wages                               XXXXX            XXXX           $204,197

        Fringe Benefit Rate per proposal (a)                    12.6%          12.6%

        Calculated Fringe Benefit Costs                        14,166          11,563           25,729

        Fringe Benefit Costs Claimed                           42,912          32,290           75,202

        Questioned Fringe Benefit Costs                       $28,746        $20,727           $49,473
       (a) The proposal for 2002 reflected a rate of 23.1%; however, based on an overall reasonableness review of
       the 2002 proposal and the 2003 proposal rate of 12.6%, a rate of 12.6% has been used for the purposes of
       this audit.

Auditee's Response

       The auditee concurred that the fringe benefits rates used to charge costs to the grants
were not supported by actual costs. The auditee has subsequently developed fringe benefit cost
proposals.




                                                      27
Auditor's Response to Auditee's Response

        The report's questioned costs are based on cost proposals submitted by the auditee in
response to the discussion draft of the audit report. Foxx reviewed these proposals; however,
these proposals should be submitted to NSF for its review and approval.

Note 3 - Consultant Services

        The $11,999 questioned represents CFO charges appear to be more appropriately
identified as indirect costs that benefited multiple cost objectives and should therefore be
recovered through an indirect cost pool. Because SCI did not have indirect costs proposals
available for review, it could not be determined if the cost for the CFO was being claimed twice,
once as a direct cost and again in the indirect cost recovery. (See Finding IV.B.)

Auditee's Response

       The auditee believes it provided adequate documentation. It indicated that it would
provide the rationale for allocability and allowability to NSF/CAAR during Audit Resolution

Auditor's Response to Auditee's Response

       Because the indirect costs proposals were not available for review, the questioned costs
remain.

Note 4 - Other

        The $133,013 questioned represents all of the in-house production costs identified on the
NSF reimbursement requests. The rates used for determining the in-house production costs for
use of the editing facilities, dubbing facilities, sound facilities (voiceovers) and archived footage,
could not be reconciled with SCI’s actual production costs. Audit procedures could not be
completed to assess if SCI recovered more from NSF than the actual in-house production costs
incurred for the NSF projects because SCI could not account for the “cost ownership” for these
costs. (See Finding IV.C.)

Auditee's Response

       SCI/CSMI believes that the in-house production expenses charged are reasonable,
allowable, and allocable. It indicated that it would share the production cost analyses with
NSF/CAAR during Audit Resolution.

Auditor's Response to Auditee's Response

       Without the indirect cost and production cost proposals, a determination of the
allowability and allocability of the costs cannot be made. The questioned costs remain.




                                                 28
                                                                                 SCHEDULE A-2

                         CENTER FOR SCIENCE IN THE MEDIA, INC.
                                 NEW YORK, NEW YORK

          NATIONAL SCIENCE FOUNDATION AWARD NUMBER ESI-9904457

                               SCHEDULE OF AWARD COSTS

                   For the period September 1, 1999 to September 30, 2003
                                        INTERIM

                                                                                       Schedule
                                                                                           B
            Cost                  Approved            Claimed        Questioned          Note
         Category                  Budget              Costs           Costs           Reference
Direct costs:
 Salaries and wages              XXXXXXX             XXXXXXX           $         -
 Fringe benefits                    XXXX                XXXX                 6,910        1
 Travel                             XXXX                    -                    -
Other direct costs:
 Publication costs                    XXXX               XXXX                    -
 Consultant services                  XXXX                    -                  -        -
 Subawards                         XXXXXX             XXXXXX               700,896        2
 Other costs                          XXXX               XXXX                    -        -
    Total direct costs             1,981,550          1,970,234            707,806

Indirect Costs                         24,619             9,016              9,016        3

Total Costs                       $2,006,169         $1,979,250         $ 716,822

Cost Sharing                      $1,930,000         $2,089,235                    -


 A. The total claimed costs reconcile with the total expenditures reported by SCMI on the
    Federal Cash Transaction Report – Federal Share of Net Disbursements as of the quarter
    ended September 30, 2003. Claimed costs reported were taken from Excel spreadsheet
    prepared from the books of accounts and invoices.




                            See accompanying notes to this financial schedule.



                                                29
                                                                            SCHEDULE B-2

                     CENTER FOR SCIENCE IN THE MEDIA, INC.
                             NEW YORK, NEW YORK

        NATIONAL SCIENCE FOUNDATION AWARD NUMBER ESI-9904457
                   SCHEDULE OF QUESTIONED COSTS

                  For the period September 1, 1999 to September 30, 2003
                                       INTERIM

Note 1 - Fringe Benefits

       The $6,910 questioned represents fringe benefits cost claimed by CSMI in excess of the
allocable fringe benefits based on the fringe benefit rate proposals provided by CSMI:

                                                               1999
                   Total salaries and wages claimed             XXXXX

                   Fringe Benefit Rate per proposal               12.8%

                   Calculated Fringe Benefit Costs                3,677

                   Fringe Benefit Costs Claimed                  10,587

                   Questioned Fringe Benefit Costs               $6,910



Auditee's Response

       The auditee concurred that the fringe benefits rates used to charge costs to the grants
were not supported by actual costs. The auditee has subsequently developed fringe benefit cost
proposals.

Auditor's Response to Auditee's Response

        The report's questioned costs are based on cost proposals submitted by the auditee in
response to the discussion draft of the audit report. Foxx reviewed these proposals; however,
these proposals should be submitted to NSF for its review and approval.




                                                      30
                                                                         SCHEDULE B-2
                                                                             (continued)


Note 2 - Subawards

The following represents subaward costs questioned by category:

                  Cost              Approved        Claimed       Questioned    Sub-Note
                Category             Budget          Costs          Costs       References
  Direct costs:
   Salaries and wages                XXXXXX         XXXXXX          $ 99,052        1
                                                                      26,146        6

    Fringe benefits                    XXXXX         XXXXX           154,640        2

    Travel                              XXXX           XXXX            3,666        3
                                                                       2,498        4
                                                                         203        6
  Other direct costs:
   Material and supplies                XXXX           XXXX              509        3
                                                                          59        6

    Publication costs                  XXXXX           XXXX            3,531        3
                                                                       1,725        4
                                                                         455        6

    Consultant services                XXXXX         XXXXX            10,853        3
                                                                       3,719        4
                                                                       1,200        6

    Other costs                        XXXXX         XXXXX             2,376        3
                                                                       1,131        4
                                                                     113,432        5
                                                                         200        6
      Total direct costs              1,505,529      1,634,044       425,395

  Indirect costs                       262,176        289,538        289,538        7

  Total direct and indirect Costs     1,767,705      1,923,582       714,933

  Less costs not billed                        -      (14,037)       (14,037)

  Total Costs                        $1,767,705     $1,909,545     $ 700,896




                                               31
                                                                                 SCHEDULE B-2
                                                                                    (continued)

2.1. Salaries and Wages

               No supporting documentation for hours worked            $ 40,232 (a)
               Hours charged to the grant exceed timesheet hours         58,820 (b)
                                                                       $ 99,052

      See Finding II.D. for more details.

      (a) There were 21 missing timesheets. SCI is unable to provide documentation to support the
      salaries and wages charged to the grant, resulting in $40,232 in questioned unsupported costs.

      (b) There were 30 timesheets in which the percentage of employee hours charged to the NSF
      award was greater than the percentage of hours detailed on the timesheets as attributable to
      the award, resulting in $58,820 in questioned costs.

Auditee's Response

(a)    The auditee acknowledged that the timesheets were not available. The auditee indicated
       the costs should be acceptable because timesheet data for the prior and subsequent periods
       charged time to the grants. However, they believe that because the costs were incurred that
       they should be allowable

(b)    The auditee generally disagreed that there are differences between hours billed and
       timesheets. In general, the auditee believes that all hours on the timesheet should be
       allocable to the grant, not just the hours coded to the grant.

Auditor's Response to Auditee's Response

(a) To be support the allocability of the salary costs, documentation for the selected costs
should be available for audit. The questioned costs remain.

(b) The employee timesheets provided reflected the employees' allocation of his/her time to the
grants. No additional documentation was provided to support that all hours on the timesheet
should have been charged to the grant. The questioned costs remain.




                                                 32
2.2. Fringe Benefits

       The $154,640 questioned represents fringe benefits cost claimed by SCI in excess of the
allocable fringe benefits based on the fringe benefit rate proposals provided by SCI. (See
Finding III.A.):

                                          1999         2000            2001         Total
    Total salaries and wages claimed     XXXXX        XXXXXX          XXXXXX      $771,254
    Questioned salaries and wages                      (125,198)                  (125,198)

    Net salaries and wages               XXXXX          XXXXX          XXXXX       646,056

    Fringe Benefit Rate per proposal       16.1%           16.1%         11.0%

    Calculated Fringe Benefit Costs        16,974         47,511         27,008     91,493

    Fringe Benefit Costs Claimed           37,953        128,925         79,255    246,133

    Questioned Fringe Benefit Costs       $20,979        $81,414       $52,247    $154,640

Auditee's Response

       The auditee concurred that the fringe benefits rates used to charge costs to the grants
were not supported by actual costs. The auditee has subsequently developed fringe benefit cost
proposals.

Auditor's Response to Auditee's Response

        The report's questioned costs are based on cost proposals submitted by the auditee in
response to the discussion draft of the audit report. Foxx reviewed these proposals; however,
these proposals should be submitted to NSF for its review and approval.

2.3. Other Direct Costs – Inadequate Support Documentation

                         Travel                       $ 3,666   (a)
                         Material and Supplies            509   (b)
                         Publication Costs              3,531   (c)
                         Consultant Services           10,853   (d)
                         Other Direct Costs             2,376   (e)
                                Total                 $20,935

       (a) The $3,666 questioned represents invoices/expense reports that were not available
       to support costs claimed by SCI. It could not be determined if the costs claimed were
       allowable, allocable and reasonable for the NSF award.



                                             33
       (b) The $509 questioned represents $495 of invoices that were not available to support
       costs claimed by SCI. The remaining $14 questioned costs relate to direct costs charged
       to the award that do not appear allocable as a direct cost. It could not be determined if
       the costs claimed were allowable, allocable and reasonable for the NSF award. (See
       Finding IV.A.)

       (c) The $3,531 questioned represents invoices that were not available to support costs
       claimed by SCI. It could not be determined if the costs claimed were allowable, allocable
       and reasonable for the NSF award. (See Finding IV.A.)

       (d) The $10,853 questioned represents invoices that did not provide sufficient
       documentation to support that the costs were allocable to the NSF grant. It could not be
       determined if the costs claimed were allowable, allocable and reasonable for the NSF
       award. (See Finding IV.A.)

       (e) Invoices totaling $2,376 did not provide sufficient documentation to support that
       the costs were allocable to the NSF grant were not available to support costs claimed by
       SCI. It could not be determined if the costs claimed were allowable, allocable and
       reasonable for the NSF award. (See Finding IV.A.)

Auditee's Response

       The auditee believes all of the originally missing invoices were found and provided to the
auditors.

Auditor's Response to Auditee's Response

        In response to the discussion draft, the auditee provided additional supporting documents
that resolved some questioned costs. The remaining questioned costs are the result of inadequate
documentation provided to support the allowability or allocability of the costs. The questioned
costs remain.

2.4. Other Direct Costs – Appear to be Indirect in Nature

                          Travel                         $2,498   (a)
                          Publication Costs               1,725   (b)
                          Consultant Services             3,719   (c)
                          Other Direct Costs              1,131   (d)
                                 Total                   $9,073

       (a) The $2,498 questioned relates to direct costs charged to the award that do not
       appear allocable as direct costs to the award. Of the $2,498 questioned, $1,984 related to
       travel costs for the XXXXXXXXXXXXXXXXXXXXXXXXXXXX. These costs
       claimed appear to be more appropriately identified as indirect costs that benefit multiple
       cost objectives. Indirect costs are to be recovered through an indirect cost pool. Because
       SCI did not have an indirect cost proposal or documentation supporting the items


                                                34
       included in the indirect cost pool, it was not possible to determine if these costs were
       being claimed twice, once as direct costs and again as part of the indirect costs. (See
       Finding IV.B.)

       (b) The $1,725 questioned relates to direct costs charged to the award that do not
       appear allocable as direct costs to the award. This amount specifically related to the
       following: 1) attendance fees for the XXXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXX, 2) annual membership to the XXXXXXXXXXXXXXXXXXXXX
       XXXXXX, 3) expenses associated with the XXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXX and 4) business cards for the Executive Director. These costs claimed
       appear to be more appropriately identified as indirect costs that benefit multiple cost
       objectives. Indirect costs are to be recovered through an indirect cost rate. Because SCI
       did not have an indirect cost proposal or documentation supporting the items included in
       the indirect cost rate, it was not possible to determine if these costs were being claimed
       twice, once as direct costs and again as part of the indirect costs. (See Finding IV.B.)

       (c) The $3,719 questioned relates to direct costs charged to the award that do not
       appear allocable as direct costs to the award. Of the $3,719 questioned, $3,150 related to
       a payment to a consultant for hours that did not appear to relate to the NSF grant. These
       costs claimed appear to be more appropriately identified as indirect costs that benefit
       multiple cost objectives. Indirect costs are to be recovered through an indirect cost rate.
       Because SCI did not have an indirect cost proposal or documentation supporting the
       items included in the indirect cost rate, it was not possible to determine if these costs
       were being claimed twice, once as direct costs and again as part of the indirect costs.
       (See Finding IV.B.)

       (d) Amounts that appear to be indirect costs benefiting multiple cost objectives were
       charged as direct costs to the award. Costs, totaling $1,131, specifically related to
       magazine subscriptions, an Internet service, telephone service, and cell phone service
       were charged as direct costs to the award. These costs claimed appear to be more
       appropriately identified as indirect costs that benefit multiple cost objectives. Indirect
       costs are to be recovered through an indirect cost rate. Because SCI did not have an
       indirect cost proposal or documentation supporting the items included in the indirect cost
       rate, it was not possible to determine if these costs were being claimed twice, once as
       direct costs and again as part of the indirect costs. (See Finding IV.B.)

Auditee's Response

        In general, the auditee believes that there was a basis for justifying all of the expenses as
direct expense under the respective grants.

Auditor's Response to Auditee's Response

       Absent an indirect cost proposal, an evaluation of the allocability of the costs as direct
expenses cannot be determined. The questioned costs remain.




                                                 35
2.5. Other Direct Costs

         The rates used for determining the in-house production costs identified on the NSF
reimbursement requests. The rates used for determining the in-house production costs for use of
the editing facilities, dubbing facilities, sound facilities (voiceovers) and archived footage, could
not be reconciled with SCI’s actual production costs. Audit procedures could not be completed
to assess if SCI recovered more from NSF than the actual in-house production costs incurred for
the NSF projects because SCI could not account for the “cost ownership” for these costs. As a
result, all of the in-house production costs, $113,432 ($88,278 Editing/Dubbing; $25,154 Other),
identified on the NSF reimbursement request is questioned. (See Finding III.C.)

Auditee's Response

       SCI/CSMI believes that the in-house production expenses charged are reasonable,
allowable, and allocable. It indicated that it would share the production cost analyses with
NSF/CAAR during Audit Resolution.

Auditor's Response to Auditee's Response

       Without the indirect cost and production cost proposals, a determination of the
allowability and allocability of the costs cannot be made. The questioned costs remain.

2.6. Duplicate Costs Claimed

        The auditee claimed costs for the period 05/01/01 - 05/31/01 on both Invoices # 24 and
#27, resulting in the following questioned costs:

               Salaries and Wages             $26,146
               Travel                             203
               Materials and Supplies              59
               Publications                       455
               Consultants                      1,200
               Other                              200
                       Total                  $28,263

       The duplicate invoice that totaled $44,458 also included $9,413 in Fringe Benefits and
$6,782 in indirect costs. These costs have been questioned in Notes 2 and 7.

Auditee's Response

        SCI/CSMI agrees that $44,458 was claimed twice. An adjustment to Grant ESI-9904457
is necessary for the double charge.




                                                 36
Auditor's Response to Auditee's Response

       The adjustment discussed by the grantee is appropriate. We recommend that the
subsequent claim be reviewed to ensure the adjustment was properly reported.

2.7. Indirect Costs

        The $289,538 represents the entire amount of indirect costs claimed by SCI as
subawardee. SCI did not prepare annual indirect cost plans to support the rate used to claim
indirect costs under the subaward. (See Finding III.B.)

Auditee's Response

       SCI/CSMI agrees that it did not submit Indirect Cost proposals every year. However, it
believes the costs charged as indirect expenses are justifiable. SCI/CSMI indicated that it has
prepared cost pool analyses for the given years that it will share with NSF/CAAR during the
Audit Resolution process.

Auditor's Response to Auditee's Response

        Because indirect cost proposals were not available, the allowability and allocability of the
indirect costs claimed could not be determined. The questioned costs remain.


Note 3 - Indirect Costs

       The $9,016 questioned represents the entire amount of indirect costs claimed by CSMI.
CSMI did not prepare annual indirect cost plans to support the rate used to claim indirect costs
under the award. (See Finding III.B.)

Auditee's Response

       SCI/CSMI agrees that it did not submit Indirect Cost proposals every year. However, it
believes the costs charged as indirect expenses are justifiable. SCI/CSMI indicated that it has
prepared cost pool analyses for the given years that it will share with NSF/CAAR during the
Audit Resolution process.

Auditor's Response to Auditee's Response

        Because indirect cost proposals were not available, the allowability and allocability of the
indirect costs claimed could not be determined. The questioned costs remain.




                                                37
                                                                       SCHEDULE C-1

                             SCIENCENTRAL, INC. AND
                       CENTER FOR SCIENCE IN THE MEDIA, INC
                              NEW YORK, NEW YORK

         SUMMARY SCHEDULES OF AWARDS AUDITED AND AUDIT RESULTS

                    For the period September 1, 1999 to September 30, 2003

   Summary of Awards Audited

           Award Number                   Award Period               Audit Period
      ESI-0201155                  March 1, 2002 to             March 1, 2002 to
                                   July 31, 2004                September 30, 2003
      ESI-9904457                  September 1, 1999 to         September 1, 1999 to
                                   August 31, 2004              September 30, 2003

         NSF Award Number           Type of Award              Award Description
      ESI-0201155                       Grant          Nova Minutes
      ESI-9904457                       Grant          Science News for Local TV and
                                                       Spanish Stations

   Summary of Questioned and Unresolved Costs by Award

                                             Award       Claimed Questioned
                NSF Award Number             Budget       Costs     Costs
             ESI-0201155                     $1,555,351 $ 740,289  $ 204,667
             ESI-9904457                      2,006,169 1,979,250    716,822
                   Total                     $3,561,520 $2,719,539 $ 921,489

   Summary of Questioned Cost by Explanation

                                             ESI-
                                     ESI-  9904457        Questioned    Internal
                          ESI-     9904457  (SCI)           Cost        Control     Non-
       Condition        0201155    (CSMI) Subaward         Amount      Weaknesses Compliance
Salaries & wages
overcharged/unsupported $ 10,182         - $125,198        $135,380       Yes          Yes
Fringe benefit rates
unsupported               49,473     6,910   154,640        211,023       Yes          Yes
Indirect cost proposals
not prepared                   -     9,016   289,538        298,554       Yes          Yes
Inadequate support for
other costs claimed      145,012            145,557         290,569       Yes          Yes
Costs not claimed                           (14,037)        (14,037)
    Total               $204,667   $15,926 $700,896        $921,489


                                             38
                                                                          SCHEDULE C-1
                                                                              (continued)

                           SCIENCENTRAL, INC. AND
                     CENTER FOR SCIENCE IN THE MEDIA, INC
                            NEW YORK, NEW YORK

     SUMMARY SCHEDULES OF AWARDS AUDITED AND AUDIT RESULTS

                 For the period September 1, 1999 to September 30, 2003


Summary of Internal Control Weaknesses and Non-Compliance Issues

                                                                           Material
                                                     Non-Compliance or    Reportable
                 Condition                            Internal Control?   or Other?
    OMB A-133 audit requirement not met            Non-Compliance          Material
                                                   Internal Control and
    Salaries & wages overcharged/unsupported                               Material
                                                   Non-Compliance
                                                   Internal Control and
    Fringe benefit rates unsupported                                       Material
                                                   Non-Compliance
                                                   Internal Control and
    Indirect cost proposals not prepared                                   Material
                                                   Non-Compliance
                                                   Internal Control and
    Inadequate financial accounting systems                                Material
                                                   Non-Compliance
                                                   Internal Control and
    Inadequate support for other costs claimed                             Material
                                                   Non-Compliance
    Cost sharing reporting requirements not        Non-Compliance
                                                                           Material
    timely met




                                              39
                          SCIENCENTRAL, INC. AND
                    CENTER FOR SCIENCE IN THE MEDIA, INC
                           NEW YORK, NEW YORK

                        NOTES TO THE FINANCIAL SCHEDULES

                           September 1, 1999 to September 30, 2003

Note 1: Summary of Significant Accounting Policies

        Accounting Basis

        The accompanying financial schedules have been prepared in conformity with National
        Science Foundation (NSF) instructions. Schedules A-1 and A-2 have been prepared
        from the reports submitted to NSF and information obtained from the accounting
        records maintained for the grant awards to SCI and CSMI. The basis of accounting
        utilized in preparation of these reports differs from generally accepted accounting
        principles. The following information summarizes these differences:

          A.   Equity

               Under the terms of the award, all funds not expended according to the award
               agreement and budget at the end of the award period are to be returned to NSF.
               Therefore, the awardee does not maintain any equity in the award and any
               excess cash received from NSF over final expenditures is due back to NSF.

          B.   Inventory

               Minor materials and supplies are charged to expense during the period of
               purchase. As a result, no inventory is recognized for these items in the financial
               schedules.




                                              40
                                SCIENCENTRAL, INC. AND
                          CENTER FOR SCIENCE IN THE MEDIA, INC
                                 NEW YORK, NEW YORK

                            NOTES TO THE FINANCIAL SCHEDULES

                              September 1, 1999 to September 30, 2003

   Note 2: Cost Sharing

   The following represents the cost share requirements and actual cost share as of September 30,
   2003:
                                                                                               Actual
                            Actual                                             Actual           Cost
               Cost          Cost                                            Supported         Share
              Share         Share         Unsupported       Unallowable         Cost        Over/(Under)
              Budget       Claimed         Cost Share       Cost Share         Share          Budget
Award No.
SCI-
0201155

Year 1 & 2 $1,152,000        $511,756     $        -        $    -               $511,756       (a)

Total        $1,152,000      $511,756     $        -        $    -               $511,756       (a)

(a) Year 2 of the awards ends on July 31, 2004; therefore, the awardee has ten months remaining to
meet the balance of the cost share budget.


                                                                                               Actual
                            Actual                                             Actual           Cost
             Cost            Cost                                            Supported         Share
            Share           Share        Unsupported        Unallowable         Cost        Over/(Under)
            Budget         Claimed        Cost Share        Cost Share       Share (b)        Budget

Award
No.
CSMI-
9904457


Year 1      $300,000      $ 436,707      $                  $                $              $
Year 2       660,000        788,928
Year 3       660,000        765,225
Year 4       310,000         98,375

Total      $1,930,000     $2,089,235     $     -            $     -          $1,930,000     $    -

 (b) Documentation for cost sharing was only provided in total for the audit period.


                                                       41
Note 3: Indirect Cost Rates

          Award Number              Indirect Cost Rate                 Base
     ESI-0201155                           23%            NSF Share of Actual Direct Costs
     ESI-9904457                           21%            NSF Share of Actual Direct Costs

 The indirect cost rates were not supported by cost proposals. (See Systemic Issues – Cost
 Sharing System Finding)




                                                42
AWARDEES' COMMENTS
             ScienCentral, Inc.
and The Center for Science and the Media, Inc.

                        Response

                       to Draft of


                   SCIENCENTRAL, INC. AND
           CENTER FOR SCIENCE IN THE MEDIA INC
                    NEW YORK, NEW YORK
               NATIONAL SCIENCE FOUNDATION
 AWARD NUMBERS ESI-0201155 ISSUED TO SCIENCENTRAL AND
  ESI-9904457 ISSUED TO CENTER FOR SCIENCE IN THE MEDIA
                  FINANCIAL SCHEDULES AND
              INDEPENDENT AUDITORS' REPORTS

                        For the period
             September 1,1999 - September 30,2003
                                                                    January 10,2005
                                                                    New York, NY

SPECIFIC RESPONSES TO THE DRAFT REPORT


EXECUTIVE SUMMARY

As an organization, both SCMI and CSMI evolved significantly over the grant periods,
which covered a span of four years from 1999 to 2003. We believe that in general the audit
report fails to note or address the relative improvements made from 2001 to the present.
Following is a brief summary of improvements made to the accounting processes, which are
described in detail later in the report:


       a) The addition of more resources and expertise-since early 2002, SCIICSMI has
       had additional resources and more expertise managing its financial functions. At that
       time, it shifted from a single full-time bookkeeper to a part-time CFO, who was
       supported by a financial assistant (at first part-time and then full-time). This allowed
       for the development of policies and procedures, greater segregation of duties, and a
       more advanced form of financial reporting.

       b) Fraud Awareness-The CEO of SCIICSMI has always taken seriously the
       obligations she holds as steward of the federal grant funds she has been awarded.
       Since the company's inception, she has keenly observed all actions of the financial
       function, though not always in an "official" manner. The company's accountants and
       a u d i t o r s supported that role through annual financial reviews and audits of
       both entities. Finally, the addition o                          f as the company's
       outsourced financial consultants added another level of support, expertise and
       financial integrity that has minimized the risks of fraud.

       c) New software-After the comments made bv the Foxx & Companv field auditor,
       ~ I I C S M decided
                   I       to upgrade the accounting software f     r     o    m with
       additional reports generated i n , since c o u l d not adequately
       monitor much of what was necessary for grant accounting. Subsequently, on April 1,
       2004, ScienCentral implemented a new accounting s y s t e m designed
       for organizations managing multiple grants. SCI then developed a new chart of
       accounts that allows for the segregation of grants by account, and segregates indirect,
       direct, and production cost pools. SCIICSMI is now able to prepare and implement
       cost allocations across many grants.

       d) Direct and Indirect Cost Tracking-- SCIICSMI has documented and developed
       indirect cost, fringe benefit and production cost pools for 1999-2003. SCI and CSMI
       used                    from the time of the pre-award Audit in 1999 and, the system
       and its Chart of Accounts were deemed acceptable then. However, after the
       fieldwork, SCIICSMI understood more clearly many of the deficiencies in the
       financial management system and changed the system, including its accounting
       software and chart of accounts.


We agree with several of Foxx & Company's findings. Specifically:

       We did not perform single audits of financial records and federal grant
       documentation for the years ended December 3 1,2000 and December 3 1,2001. If
       the NSF directs CSMI to perform the audits at this time, it is willing to do so, but note
       that the company has already been examined rigorously during the course of the audit
       by Foxx & Company.
       The fringe benefits rate charged to the grant exceeded the number that we can justify
       from actual costs. We currently reimburse at a lower rate that reflects actual costs.
       Our calculation to determine an hourly billing rate for employees was incorrectly
       based on 35 hours per week. We currently reimburse at a lower hourly rate that
       reflects our 37.5 hour work week.
       We "double-billed" a monthly invoice from ScienCentral (as sub-awardee) to CSMI
       in May 2001, which resulted in $44,458 in overcharges to ESI-9904457.
       We agree that there were issues with a few timesheets and billing hours as noted in
       Q 77, 4 7 8 and 4 8 7 for a total of $3,105.

However, we believe that the remainder of the questioned costs can be justified under NSF
and Federal grant guidelines. We look forward to discussing the remaining questioned costs
with NSFICAAR in the near future.


EXIT CONFERENCE (Page 5)

The report does not discuss the prolonged history of this audit and the character of
communications exchanged between SCIICSMI and Foxx & Company. An end of fieldwork
meeting was conducted on December 18,2003 in which some preliminary findings were
discussed. After this meeting we were left with the impression that Foxx & Company would
seek to further resolve the "open issues". We did not hear back from Foxx & Company until
July 6, 2004, when they presented the draft audit report.



FINDINGS AND RECOMMENDATIONS

Finding I. OMB A-133 Audit Requirement Not Met (Page 10)

CSMI agrees that it did not perform single audits of its financial records and federal grant
documentation for the years ended December 31,2000 and December 31,2001. If the NSF
directs CSMI to perform the audits at this time, it is willing to do so, but notes that the
company has already been examined rigorously during the course of the audit by Foxx &
Company. However, to ensure compliance in future we have developed a corrective action
plan.


Corrective Action Plan
       1.      SCI engaged              LLP, the w o r l d ' s accounting firm,
      which specializes in performing OMB Circular A-133 and grant audits, to
       review SCIICSMI accounting and reporting systems and suggest improvements.

       2.     SCI is training and will continue to train its staff on all changes and new
       written procedures, in addition to the ones already in place, to ensure staff
       compliance.

       3.     Audits in accordance with OMB Circular A-133 will be performed for
       future periods.



Finding 11. Systemic Issues (Pages 11- 15)

A. The Financial Management System is Inadequate (Page 11- 12)

It should be noted that ScienCentral is a small company, which grew from a few employees
in 1999 to approximately 17 today. While SCIICSMI agrees that the current financial
management system can be improved, the management strongly disagrees that it is
inadequate to:

   a) maintain control of the expenses related to the grants received from the NSF;
   b) properly distinguish allowable and allocable costs; AND,
   c) provide the source documentation for the recent audits.

SCIICSMI can clearly and appropriately:

   a) account for all dollars reimbursed under each grant;
   b) document and explain why costs were direct expenses or indirect expenses; AND,
   c) maintain a sufficient level of segregation and control.

The reasons for making the statements are presented below:


Segregation of Duties

The report states that the "CFO was solely responsible for inputting data into the accounting
system, preparing the electronic grant tracking spreadsheets, and reporting grant
expenditures to NSF." This was true only briefly during the course of either grant. Ordinarily,
the CFO had an assistant who inputted data, though there were months in which SCIICSMI
did not since the company had not yet found a replacement.

The CEO monitored financial reports, including FCTRs, grant budgets, bank statements on a
quarterly basis. This has now been changed to a monthly financial review. The CEO has
monitored and reviewed cancelled checks, grant reports, FastLane requests on a consistent
basis.

SCIICSMI internal policies and procedures limited the check signing authority of the
bookkeeper (from 1999 - 2001) to $500 and the CFO (from 2002 - Present) to $750. All
checks over those amounts required written approval of the CEO for payment, if she was
unavailable to sign the check. This policy has been consistently adhered to during the last 6
years.

Finally, the company's accounting firm r e v i e w e d the financial records on a quarterly
basis from 1999 - 2001 and an annual basis since then. w o u l d review the company
financial performance with the CEO and discuss any potential fraudulent issues with her.


Fraud Awareness

SCI and CSMI management takes the responsibility of managing NSF grants very seriously.
SCIICSMI agrees it did not have proper segregation of all accounting duties in the past and
the accounting system did not allow for tracking of individual grants. As a small business it
must evaluate cost vs. benefit relationship of all control issues and company funding has
sometimes forced us to choose a more cost-effective, rather than control, alternative.
However, it is the opinion of SCIICSMI management that it has made significant
improvements over the past few years and the future plan of action will mitigate any further
risks.

SCIICSMI strengthened the process for review of transactions for errors and irregularities
through several mechanisms. The CEO now receives email notification of FastLane draws
instead of the CFO. This allows the CEO to be informed, through the FASTLANE system, of
all grant reimbursements. In addition, the CFO reports all transactions to the CEO monthly

2005, the new accounting system  d b
for approval, rather than the quarter1 rocess in place previously. Beginning in January
                                              will generate a grant-specific P&L report for
each reimbursement period. The process of reimbursements will then be driven through the
GIL and have two levels of approval-CFO and CEO.


Direct vs. Indirect Costs

SCIICSMI has documented and developed indirect cost, fringe benefit and production cost
pools for 1999-2003. The details are discussed later in the report. For the years 1999 to 2003,
SCIICSMI can segregate direct vs. indirect costs from the accounting system. SCI and CSMI
used f      r    o      m the time of the pre-award Audit in 1999 and, the system and its
Chart of Accounts were deemed acceptable then. However, after the fieldwork, SCIICSMI
understood more clearly many of the deficiencies in the financial management system and
changed the system, including its accounting software and chart of accounts.


Accounting Software

On April 1, 2004, ScienCentral implemented a new accounting system        m
designed for organizations managing multiple grants. With the support of a CPA consultant
from              SCI developed a new chart of accounts that allows for the segregation of
grants by account, and segregates indirect, direct and production cost pools. SCIICSMI is
now able to prepare and implement cost allocations across many grants. The allocation
system is codified so that it is not dependent on personal knowledge of each expense. There
is a system in place that tracks each invoice to a grant and a general ledger code, is signed off
by a manager, and is reconciled to expense reimbursement requests. With the robust
capabilities o      f      , and the new Chart of Accounts, SCIICSMI is able to prepare NSF
reimbursement draws directly from the General Ledger and eliminate any need for a
reconciliation (point #I). There is a n r e p o r t that provides a grant-specific expense
report for a given period (week, month, et al.) that can drive the reimbursement process
Please see Attachment 1 for a description of the s o f t w a r e system.


In-house Production Costs

The basis for charging in house production facility costs were reasonable and are supported
by the actual expenditures. When developing the charge structure at the inception of the
award, SCIICSMI based it on industry standard rates in Manhattan, where the production
facility is located. At the time, the facility was not yet built and there was no other basis for
charging use of the facility. SCIICSMI began construction of the facility in 2001, and began
production during construction until it was fully operational in late 2003. Though SCIICSMI
did not initially break out all costs through the accounting system, the costs for running the
facility have since been segregated and will continue to be. The costs incurred mostly match
the reimbursements made for use of the facility from the NSF awards. Note that because the
facility was so new, it was not possible to collect enough data to determine an actual
production rate until 2004.

During 1999 and early 2000 SCIICSMI transitioned from an accounting system that had no
indirect expenses (all expenses were allocated to a grant as direct expenses) to one which
segregated indirect expenses. During the transition period, certain expenses (like telephone)
were allocated and charged as direct expenses, but, in subsequent periods, were later charged
as indirect expenses. In no case were charges counted twice (once as a direct expense and
once as an indirect expense). Foxx & Company also questions costs that were correctly
counted as direct costs. For example, both awards support the development and maintenance
of web sites. Broadband Internet service is integral to the news production facility (there is a
news bureau in upstate New York and another in Washington State, plus the service is used
to transmit video and images needed to produce the video news stories made under the NSF
awards). Thus web site hosting and Internet expenses were direct expenses. As we began to
have multiple grant awards and grant objectives, we shifted most of these expenses to the
indirect cost pool. The legal fees in question were to negotiate a contract to perform the
services, under the terms of the grant agreement.

Analyses of our indirect, fringe and in-house production costs pool have been completed for
both organizations for the periods of 1999 - 2003. We will be pleased to share them with the
NSFICAAR at the appropriate time.


Other Matters and Improvements

1. Note that SCIICSMI has written procedures for determining the reasonableness,
   allocability and allowability of costs. There is a section of the Policy & Procedures
   Manual which provides written guidelines. The auditors may believe they need
   improvement but it is inaccurate to say there are none. Please see Attachment 2.

2. SCIICSMI agrees that $44,458 were claimed twice. An adjustment to Grant ESI-
   9904457 is necessary for the double charge.

3. SCIICSMI can support part or all of the $756,022 in expenses questioned. Employee
   benefit rates were charged at 35% but calculated to be 16% as calculated in the attached
   table. Though SCIICSMI did not submit indirect cost proposals for award ESI-9904457,
   SCIICSMI is able to support the indirect costs claimed and we will be pleased to share
   our documentation with the NSFICAAR.



B. Grantee did not Maintain Adequate Cost Sharing Documentation (Page 12)

The report notes that "in cases where the cost sharing requirements of the award are
$500,000 or more, the amount of cost-sharing must be documented (on an annual andJinal
basis), certified by the authorized organizational representative and reported to the NSF
program oflcer."

SCIICSMI agrees that it did not provide cost sharing certification through FASTLANE in the
years mentioned in the report; however it did provide its NSF program officer with annual
reports that included the cost-sharing amounts. Each amount was certified by the authorized
organizational representative and a representative o f ~ e w s .

SCIICSMI provided documentation to Foxx & Company. that each story was distributed by
~    e    w (a major
                s     component of the in-kind support they provide) through an independent
monitoring service that tracks stories broadcast via the networks, and letters from the entities
providing services. ~     e    w wasswilling to provide any additional documentation
requested by SCI, the NSF, or Foxx & Company at any time. SCIICSMI agrees that it did not
provide a certifying letter from      News until after the exit conference call and receipt of
an open item list in July, 2004.
Foxx & Company's comments that "[wlhile SCI/CSMI was ultimately able to demonstrate
that it met its cost-sharing obligations under the awards, it needs to improve how it
documents, certifies, and reports cost sharing to ensure that its cost-sharing system provides
accurate, current, and complete disclosure of its actual cost sharing contributions by award
in a timely manner." SCIICSMI agrees that it met its cost sharing obligations, but disagrees
about the timeliness of the documentation.


C. Inadequate Documentation to Support Salaries and Wages (Pages 13 - 14)
 SCIICSMI believes that the majority of the $109,234 in questioned salary costs can be
justified by documentation supplied already to Foxx & Company. We disagree with the
findings on $107,053 of the questioned salary costs as follows:

SCHEDULE B-1, NOTE 1
As noted in Detail Findings: Schedule X-5,

       We disagree that there are differences between hours billed and timesheets as noted in
       471,472,473, and 481. The supporting documents previously provided to Foxx &
       Company prove otherwise.
       With 483, we found the error was caused by charging hours to the grant ESI-
       0201155 when they should have been charged to the grant ESI-0206184. Our total,
       however, shows the timesheets support 117.5 hours, not the 114.3 noted in the audit
       report.
       We agree that there were issues with the timesheets and billing hours as noted in Q
       77, 4 7 8 and 487 for a total of $3,105.


   Therefore, we believe that the questioned costs should be $3,105 for this selection.


SCHEDULE B-2, NOTE 2.1
As noted in Detail Findings: Schedule X-1,
a) For the timesheets covered under "no supporting documentationfor hours worked", we
have been unable to locate the original timesheets for these hours worked by SCI employees
in 2000. In lieu of the actual timesheets, we provided Foxx & Company the following to
support our direct expense charges against the grant: (1) timesheet for the respective
employee for the prior monthly period, (2) timesheet for the respective employee for the
subsequent monthly period and (3) the ADP payroll report proving that SCI paid this
employee during this month. We believe that this should be sufficient support to justify the
$40,232 in salary expenses.

As noted in Detail Findings: Schedule X-2,
b) For "hours charged to the grant exceed timesheet hours", At the time of the preparation
of the reimbursements, SCI was billing the NSF for the employee's time spent as holiday,
vacations and personal days. These hours, when added to the hours noted by the "NSF
Hours" in the findings, will total to the total "timesheet hours". Since the majority of these
staff were exclusively dedicated to the grant, and charged as a direct expense, we feel    ~
appropriate that their entire monthly salary be charged to the grant.

As noted in Detail Findings: Schedule X-2,
C) w         a       s the company's               Manager. w a s originally hired as a
Designer (a line item in the grant proposal budget) but       role evolved and was expanded to
include Production/Facility Administration by 2000. Accordingly,           role r e q u i r e d to
exclusively manage the news production facility. This included the research and purchase of
production equipment, the maintenance and repair of the equipment, as well as the
establishment of the standards for use. -also wlanned the wroduction schedules, monitored
the usage schedules and maintained all editing and production room logs. Thus, despite
timesheets using the "administration category", w          a       s definitely an integral part of
the STN2              team and spent the vast majority of his time on the ESI-9904457grant.
    time noted in this finding can be justified as a direct salary expense against ESI-9904457.


Personnel Compensation

SCIICSMI agrees that merit increases were communicated orally in the past, but this policy
has been changed whereby the increases are communicated in writing and retained in the
personnel files. As of January 2004 annual salary and billing rate (per hour) amounts are
included in personnel files for all current employees.


Timekeeping

During the periods in questions, SCI Newsroom staff and Managers were involved
exclusively in news activities. These employees were the "NEWSROOM" funded by the
NSF grants and were exclusively involved in NSF-funded activities at the time. The entire
program was funded by the NSF with in-kind support f r o m News a n d . Thus,
100% of the News staff effort was allowable and allocable to NSF awards. However, over
time, there were some employees that began to work under the auspices of 2 or more grants.
SCIICSMI decided to track time on an hourly basis to allocate time between the grants.
Employees often misunderstood how to categorize their time. Initially, we ended up with a
lot of notes to the files to correct categorization mistakes until we went to a better system.
(Note for example that Producer m         p      u    t time under "Indirect costs", a category
that makes no sense since I      had no role to play on any activity but program direct cost type
activities).

When SCIICSMI converted t              o            , an online system that uses a pull-down
menu to allocate time to different accounts, it became unwieldy to include too many accounts
and used "corporate" to connote general work that the employee could not assign to a
particular story. Producers and news managers had no other responsibilities save to the NSF-
funded program during the periods audited, but used that category to capture time they could
not assign to a particular story.
SCIICSMI reviewed payroll rate errors or billing errors noted during the auditor's fieldwork
and adjustments to our reimbursements were made in the weeks shortly after their visit. With
our reimbursements of December 23, 2003, we shifted our calculations with the
reimbursements in two ways: (1) we changed our billing ratelhour calculation to be based on
162.375 hours per month, thus lowering the billing rates, and (2) we stopped billing for all
employee hours over 37.5 within any given reimbursement week.

SCIICSMI is open to a discussion with the auditors, the OIG or CAAR on the relative
strengths and weaknesses of the existing time and effort reporting system and will implement
reasonable suggestions on a go forward basis.

SCIICSMI agrees that there were some missing timesheets, due to problems with
reorganizing the records after two floods in the NY offices in 2000 and again in 2003, but
could justify the expenses as noted above.


D. SCI Maintained Excess Cash Balances (Page 15 - 16)

SCIICSMI financial and management practices changed over time. For a period of several
years when most of the money was expended under award ESI-9904457 (from 1999 to May
2002), SCIICSMI did seek reimbursements as close as possible to the payroll period so that
there was not excess federal cash on hand. However, in June 2002, the policy was changed
because the reimbursement process was becoming too complex for the bookkeeper to
manage on a monthly basis as the company grew to a staff of 17. With the new accounting
system implemented in April 2004, SCIICSMI was able to develop a new procedure for
timing payroll reimbursements closer to the monthly payroll disbursement. We implemented
this process completely with the December 2004 payroll.


Overall Effect of the Systemic Internal Control Weaknesses

SCIICSMI disagrees that there is "a high risk thatfmud and/or abuse could occur and not be
detected." The reports notes that 34% of claimed costs were questioned. We believe the vast
majority of claimed costs are justifiable as reasonable, allowable, and allocable since we
documented them with an invoice and we can explain the allowability and allocability of
each cost. SCIICSMI does agree that the majority of the invoices were not coded in a
consistent manner to express its applicability to the respective grant and budget line item.
We believe the lack of a formal system to code our invoices does not mean that each expense
should be deemed unallowable under the grant. We can justify the allowability of each direct
expense charged to each grant.

We disagree that all key accounting functions reside within one individual as noted above.
As a small organization, the emphasis has been on performing the functions for which the
award was made. SCIICSMI improved its financial management and control systems over
time, and is open to finding ways to continue to improve. Among the factors that mitigate
against undetected fraud and abuse are the adherence to grant budgets and close working
relationships between all the staff at a small firm. Please also refer to pages 3-6 of this
response for other factors which mitigate the risk of fraud.



111. Allocation Issues (Page 16)

A. Claimed Emplovee Benefit Costs Exceed Actual Costs (Page 16 - 17)

SCIICSMI agrees that it charged fringe benefits at a higher rate than what was spent for that
purpose.


Corrective Action Plan
      We determined the actual cost of fringe benefits and will review it each year.
      We currently charge fringe benefits at 12.6% of gross salary (a rate justified by
       the 2003 fringe cost pool analysis). We'll discuss resolution of previous excess
       reimbursements with NSFICAAR during Audit Resolution.


B. Indirect Cost Proposals Not Prepared and Submitted Annually (Page 17 - 18)

SCIICSMI agrees that it did not submit Indirect Cost proposals every year. However, the
costs charged as indirect expenses are justifiable. SCIICSMI prepared cost pool analyses for
the given years which we will share with NSFICAAR during the Audit Resolution process.

Please note that Foxx & Company questions certain costs that they believe should be
included in the indirect cost pool, but SCI believes are direct expenses for producing the
news programs supported by the NSF awards. SCI cites the following examples: travel to the
(    m     e     e    t    i    n     g   s with co-production partners, news interviews,
news research); membership in                                                           (one
organization that helps promote SCI news pieces); and journal subscriptions (needed to
research news stories). These expenses did not benefit any projects at SCI other than the
single NSF award operating at that time.


Corrective Action Plan
       SCI redesigned the Chart of Accounts (Attachment 3) within a new accounting
       system (Attachment 1) to segregate direct expenses by grant and code other
       expenses for inclusion in the production pool, the indirect cost pool, or non-pool
       overhead (unallowable expenses).



C. There is no "C" in the draft audit report.
D. (Rates Used to Allocate In-House Production Costs to the Awards are Unsupported

SCIICSMI believes that the in-house production expenses charged are reasonable, allowable,
and allocable. According to our analyses, the expenses incurred were nearly the same as the
reimbursements made. We look forward to sharing the production cost analyses with
NSFICAAR during Audit Resolution. (Note: if an expense was included in the production
pool, it was not charged as Direct or Indirect to make it exclusive to this pool.)

There is an apparent contradiction in two different sections of the audit report. On Page 19,
Foxx & Company writes, "The costs incurred for updates and maintenance, however, were
already included and recovered via the use of in-house production rates...", while in
Schedule B-2, Note 2.5 it states, "Audit procedures could not be completed to assess ifSCI
recovered more from NSF than the actual in-house production costs incurredfor the NSF
projects." In other places, they also referred to being unable to determine the in-house
production costs so it is not clear how they were able to know that costs were recovered as
noted in the Page 19 statement.


Corrective Action Plan
       SCIICSMI will submit indirect cost, fringe benefit, and production rate cost
       proposals to the NSF, as CAAR directs.


IV. Other Documentation Issues (Page 20)

SCIICSMI believes that it provided adequate documentation for the vast majority of the costs
for "CFO services and certain other direct costs". SCIICSMI looks forward to providing the
rationale to NSFICAAR during Audit Resolution.

A. Documentation for Certain Other Direct Costs Claimed is Not Available

SCIICSMI was not able to provide all documents during the auditors' fieldwork, especially
for ESI-9904457. It was mentioned to the auditors that documents were misplaced either
during the company relocation from Stamford to NY City or after the floods in the
Manhattan facility in April 2000 and then in 2003, which caused months of disruptions.
When given a list of the missing documents during the fieldwork, SCIICSMI promptly began
to reconstruct the documentation and all of the missing invoices were since been found and
provided to Foxx & Company.

B. Indirect Tvpe Costs are Charged Directlv to the Awards

There was a basis for justifying all of the expenses listed here as direct expense under the
respective grants. The audit team may still disagree with the decision to declare it a direct
expense, but it should be noted that they did not ask about each respective invoice that was
questioned under this category.
Schedule B-2/2.3a, 2.3b. 2 . 3 ~

We provide this response to Foxx & Company's questioned costs noted in Schedule B-2:

       Exception X4 ($430.50)- The expense was charged as a direct expense to the grant
       because                   an employee who works from her home ni-
       traveled to our NYC office to receive training on new production equipment, which
       u s e d to produce stories supported by the NSF award (#'s NSF 5003A and NSF
       5003B).       attended a key meeting relating to those and other upcoming network
       SWEEPS period stories. Travel costs to this important meeting were certainly related
       to the grant's objective. Note that       at the time, was a producer exclusively
       dedicated to the ESI-9904457 grant.

                                              (approx. $7,300 in questioned costs). . . while we
       do not have expense reports or trip reports for these charges, each cost charged to the
       grant (and paid from t h e a c c o u n t ) was a direct expense to the grant and, this
       allocable. We look forward to discussing with NSFICAAR the details behind why
       each trip was in support of the grant's objectives.
Attachments


1.   Description of (   n   e    w accounting system)
2.   SCI Policy & Procedure Manual: Direct andlndirect Expenses
7.   New SCI Chart of Accounts
Attachments 1, 2, and 3 have been
     redacted in their entirety
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

            Internet
          www .oig.nsf.gov

           Email Hotline
            oigCii),nsf.gov

             Telephone
           703-292-7100

    Toll-free Anonymous Hotline
           1-800-428-2189

                Fax
           703-292-9158

                 Mail
     Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230
